<html>
<title> - BORDER SECURITY AND ENFORCEMENT: DEPARTMENT OF HOMELAND SECURITY'S COOPERATION WITH STATE AND LOCAL LAW ENFORCEMENT STAKEHOLDERS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                   BORDER SECURITY AND ENFORCEMENT: 
                   DEPARTMENT OF HOMELAND SECURITY'S 
     COOPERATION WITH STATE AND LOCAL LAW ENFORCEMENT STAKEHOLDERS

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON BORDER AND
                           MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 3, 2011

                               __________

                           Serial No. 112-20

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
72-230                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1275627d52716761667a777e623c717d7f3c">[email&#160;protected]</a>  


                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Vacancy
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
           Michael J. Russell, Staff Director/General Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                Candice S. Miller, Michigan, Chairwoman
Mike Rogers, Alabama                 Henry Cuellar, Texas
Michael T. McCaul, Texas             Loretta Sanchez, California
Paul C. Broun, Georgia               Sheila Jackson Lee, Texas
Ben Quayle, Arizona, Vice Chair      Brian Higgins, New York
Scott Rigell, Virginia               Hansen Clarke, Michigan
Jeff Duncan, South Carolina          Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)

                      Paul Anstine, Staff Director
                   Diana Bergwin, Subcommittee Clerk
            Alison Northrop, Minority Subcommittee Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Candice S. Miller, a Representative in Congress 
  from the State of Michigan, and Chairwoman, Subcommittee on 
  Border and Maritime Security...................................     1
The Honorable Henry Cuellar, a Representative in Congress from 
  the State of Texas, and Ranking Member, Subcommittee on Border 
  and Maritime Security..........................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  from the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     4

                               Witnesses

Mr. Kumar C. Kibble, Deputy Director, U.S. Immigration and 
  Customs Enforcement, Department of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Ronald Vitiello, Deputy Chief, U.S. Customs and Border 
  Protection, Department of Homeland Security:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Mr. Larry A. Dever, Cochise County Sheriff's Office, Arizona:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20
Mr. Todd Entrekin, Etowah County Sheriff's Office, Alabama:
  Oral Statement.................................................    22
  Prepared Statement.............................................    24
Mr. Gomecindo Lopez, Commander, Special Operations Bureau, El 
  Paso County Sheriff's Office, Texas:
  Oral Statement.................................................    26
  Prepared Statement of Richard David Wiles......................    27


                   BORDER SECURITY AND ENFORCEMENT: 
DEPARTMENT OF HOMELAND SECURITY'S COOPERATION WITH STATE AND LOCAL LAW 
                        ENFORCEMENT STAKEHOLDERS

                              ----------                              


                          Tuesday, May 3, 2011

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 311, Cannon House Office Building, Hon. Candice S. Miller 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Miller, Rogers, McCaul, Quayle, 
Duncan, Cuellar, Sanchez, Clarke, and Thompson.
    Mrs. Miller. The Committee on Homeland Security, the 
Subcommittee on Border and Maritime Security will come to 
order.
    The subcommittee is meeting today to hear testimony from 
Kumar Kibble, who is the deputy director of Immigration and 
Customs Enforcement; Ron Vitiello, the deputy chief of the U.S. 
Border Patrol; and Sheriff Larry Dever from Cochise County, 
Arizona; Sheriff Todd Entrekin from Etowah County, Alabama; and 
Gomecindo Lopez--I am sure I did not quite pronounce that 
correctly--who will be filling in for Sheriff Wiles, who was 
unable to make the hearing.
    We are meeting on the Department of Homeland Security's 
level of cooperation with State and local law enforcement. I am 
going to recognize myself for an opening statement.
    For the better part of this spring, this subcommittee has 
tried to hone in on efforts of Customs and Border Protection to 
secure the Nation's borders since the security of the Nation's 
border is primarily a Federal Government responsibility. 
However, I think it is very clear that CBP and the Department 
of Homeland Security cannot secure the border alone. State and 
local law enforcement, first responders, other governmental 
officials can and should be leveraged to accomplish the shared 
goal of a secure border and safe communities.
    In a time of constrained budget resources, we cannot afford 
to have wasteful and duplicative efforts by different levels of 
government. The American people rightly demand that we stretch 
hard-earned taxpayer dollars to get the most bang for the buck.
    As a result, I believe that America desperately needs a 
whole, all-of-government strategy for border security that 
respects State and local governments, who, in most cases, are 
very willing and able partners to the Federal Government. I 
think instead of suing some State governments, who are trying 
to address a problem that the Federal Government has not 
appropriately addressed, we should be working with States and 
with the locals to adequately secure the border and to address 
their concerns.
    We have heard that the border is as safe as it has ever 
been, but for many local communities dealing with the effects 
of illegal immigration, drug interdiction, et cetera, that may 
not be the case. The Border Patrol, CBP, and ICE each have 
around 20,000 agents, but that certainly pales in comparison to 
the over 730,000 local and State law enforcement officers 
Nation-wide.
    Fortunately, cooperation is a two-way street. In many rural 
communities, Border Patrol agents have come to the aid of local 
law enforcement on routine stops, in some instances actually 
saving the lives of local law enforcement. Unfortunately, that 
is not something that you hear about in the news every day, but 
it certainly speaks to the quiet professionalism of the U.S. 
Border Patrol.
    Cooperation along the border has largely been good, but 
that doesn't mean that we can't do better, that we can explore 
new and innovative ways to work toward our common goal of 
securing the homeland, which is why I actually introduced a 
bill requiring the strategy to gain operational control of both 
borders, which takes into account the contributions of State 
and local resources.
    The Department of Homeland Security currently cooperates 
with State and local through a variety of grants and other 
programs, including Operation Stonegarden, Secure Communities, 
and 287(g). These programs allow State and local law 
enforcement to become force multipliers for DHS and, in the 
process, make their communities safer by increasing patrols on 
the border and removing dangerous aliens from our cities.
    Secure Communities is a good example. Actually, in one of 
my communities, St. Clair County, we recently had this come on-
line, whereby all of those that are apprehended by local law 
enforcement, their fingerprints are run against the DHS's 
databases to see if they are in the country legally. If not, 
they can be quickly identified by ICE and removed from the 
country.
    Last year, ICE deported around 400,000 illegal aliens. Over 
half of them were criminal aliens. ICE uses county jails all 
across the Nation to hold immigration violators until they can 
be deported.
    Operation Stonegarden is another program under the 
oversight of the U.S. Border Patrol, which allows for enhanced 
local law enforcement presence to patrol the border through the 
payment of overtime. It has been a success, I think, on both 
borders.
    I would like to point out that, for fiscal years 2011 and 
2012, the administration wanted to limit Stonegarden to just 
the Southwest border States, but Congress actually removed that 
provision in the latest funding bill. I believe that limiting 
Stonegarden funds to the Southwest border is probably not the 
best policy, and so I think we need to have it at both borders 
again. But it has been a tremendous success, I think.
    Now, lastly, our Integrated Border Enforcement Teams, as 
well as the Border Enforcement Security Task Forces, also known 
as BEST, facilitate the sharing of intelligence and resources 
to prevent cross-border crime and other acts of violence. For 
criminal organizations, the border is not just a speed bump, so 
our agencies must be just as nimble. The only way to do that is 
through specifically designed task forces and enforcement teams 
that share authority and information on cross-border criminal 
enterprises. I know that Ranking Member Cuellar has a bill that 
he has introduced about BEST as well, and I look forward to 
working with him, moving that through the process as well.
    Leveraging local and State resources is just, I think, good 
common sense. Congress is very eager and willing to facilitate 
cooperative efforts to secure the border, to remove dangerous 
criminal aliens from our streets and to help DHS secure our 
Nation's homeland. State and locals are willing and able 
partners, and developing a plan to incorporate them into daily 
operations is imperative.
    The Chairwoman would now recognize the Ranking Member of 
the subcommittee, the gentleman from Texas, Mr. Cuellar, for 
any opening statements that he may have.
    Mr. Cuellar. Thank you very much, Madam Chairwoman, Mr. 
Thompson also.
    I am pleased that the subcommittee is examining the 
Department of Homeland Security's cooperation with State and 
local law enforcement on border security and immigration 
enforcement--matters that are important to us. In my 
Congressional district along the U.S.-Mexico border, 
cooperation among Federal, State, local law enforcement on 
border security matters is an everyday occurrence.
    Whether we are talking about Stonegarden, as Madam 
Chairwoman mentioned, or as part of initiatives like the Border 
Enforcement Security Task Force, BEST, or just in the course of 
carrying out the regular law enforcement duties, local police 
and sheriffs' departments work along with the Texas Department 
of Public Safety and Federal agencies, such as ICE, Border 
Patrol, DEA, on a regular basis. These law enforcement agencies 
understand that the way to meaningful border security is to 
work together to combat the cartels, smugglers, and criminal 
elements who seek to do us harm.
    In my hometown, Laredo, this is the home of the first 
Border Enforcement Security Task Force, an ICE-led initiative 
to identify, disrupt, and dismantle criminal organizations 
posing significant threats to border security. There are 21 
BESTs on the Northern and Southern borders, including a BEST 
team in Mexico City. My understanding is that the BEST teams 
are doing a remarkable job.
    From an operational standpoint, BEST teams are able to 
share critical information real-time on account of their 
working environment, which is in very close proximity to one 
another. Teams are comprised of personnel from ICE, CBP, ATF, 
DEA, FBI, various sheriffs' departments, local police, Mexican 
Secretaria de Seguridad Publica, or SSP, et cetera, that 
usually work together in the same building or facility.
    The BEST initiative has also allowed for foreign law 
enforcement agencies to share sensitive investigative 
information rapidly and without delay, thereby helping to 
ensure the safety of the men and women who work tirelessly 
protecting our borders each and every day.
    These task forces have had a great deal of success, 
resulting in more than 5,200 criminal arrests, 7,200 
administrative arrests, 12,000 pounds of cocaine, 300 pounds of 
heroin, 300,000 pounds of marijuana, 2,800 pounds of ecstasy, 
et cetera, and vehicles and currency that they have gotten.
    Further, the State and local elements of each BEST team are 
critical to the success of this program. Beyond providing the 
appearance of uniformed assets and a marked police presence, 
which are extremely helpful and necessary during arrest 
operations, search warrants, traffic stops, high-risk 
situations, and additional prosecutorial resources are highly 
beneficial.
    The work of ICE and its partners is to be commended. In 
recognition of the success of this program, as Madam Chairwoman 
has mentioned, I have introduced H.R. 915, a bill to codify the 
BEST program in law to help ensure the program.
    This legislation is also named after the ICE agent and BEST 
member, Jaime Zapata, who gave his life in the line of duty 
while in Mexico earlier this year. Chairwoman Miller has 
indicated her strong support of this BEST program, and I look 
forward to working with the Chairwoman on this important bill.
    I would also like to highlight the important supporting 
role that State and local law enforcement play in the Federal 
Government's border security. Often these local officers are 
the first-line defense when it comes to border-related criminal 
activity. Without their efforts, the border and the people 
living along our border communities would not be secure.
    So I thank all the witnesses who are here and thank you for 
the good work that you all are doing, and I look forward to 
your testimony.
    Mrs. Miller. I thank the gentleman.
    The Chairwoman would now recognize the Ranking Member of 
the full committee, the gentleman from Mississippi, Mr. 
Thompson, for any opening statement he may have.
    Mr. Thompson. Thank you very much, Madam Chairwoman.
    I welcome our panel of witnesses to this hearing today.
    I am also pleased that today the subcommittee is examining 
the Department of Homeland Security's cooperation with State 
and local law enforcement on border security and immigration 
enforcement matters. I have had an opportunity to travel to 
America's Northern and Southern borders and have seen first-
hand the good work of law enforcement--Federal, State, and 
local--in these regions.
    Border security and immigration and enforcement are first 
and foremost a Federal responsibility. In recognition of that 
fact, the Federal Government has made an enormous investment in 
border security personnel, technology, and infrastructure in 
recent years. However, State and local law enforcement also has 
an important supporting role to play.
    When the safety and security of our communities is at 
stake, cooperation, coordination, and communication in these 
matters is essential. Programs like BEST, IBET, and Operation 
Stonegarden are an integral part of promoting communication 
among law enforcement agencies in border communities, as well 
as providing the resources necessary for State and locals to 
assist their Federal counterparts.
    I would like to hear from our witnesses today about their 
experiences with these programs and what we could do to further 
enhance their collective work on border security.
    Unfortunately, one of the invited witnesses, Sheriff 
Richard Wiles of El Paso County, Texas, could not be with us 
today. We are fortunate, however, to have Commander Lopez from 
the El Paso County Sheriff's Department testifying on his 
behalf.
    El Paso has been recognized as one of the safest 
communities in America, despite being located just across the 
border from Juarez, the most violent city in Mexico. We often 
hear people characterizing border towns as violent and evil, 
lawless places, but that is certainly not the case with El 
Paso. I have visited with El Paso on numerous occasions and 
believe that the cooperation of all law enforcement officers in 
that community is an important part of their success. I also 
hope to hear about the good work they are doing in El Paso 
County and, in particular, about the importance of community 
policing in keeping a place like El Paso safe and secure.
    Regarding Federal cooperation with State and local law 
enforcement on immigration programs, this is not the first time 
the Committee on Homeland Security has examined the issue. Two 
years ago, the Government Accountability Office released a 
report on the 287(g) program, prepared at our request. The GAO 
report revealed some troubling shortcomings, including 
insufficient guidance and oversight of program participants. 
Also, officials from a majority of the State and local law 
enforcement agencies GAO reviewed reported community concerns 
about the use of programs for minor violations or about racial 
profiling. I know ICE has made some significant changes in the 
287(g) program since the release of that report, and I look 
forward to hearing more about how the program is functioning 
today.
    As Members of the Committee on Homeland Security, we know 
that securing America's borders is an enormous task. No matter 
what uniform they happen to wear, the American people expect 
law enforcement officers to work together. I look forward to 
hearing more on how we can promote the cooperation and 
coordination in the interest of the safety and security of our 
Nation.
    I thank the witnesses for joining us today.
    I yield back.
    Mrs. Miller. I thank the gentleman.
    Other Members of the committee are reminded that you can 
submit opening statements for the record.
    But, you know, before I recognize the witnesses for their 
testimony, I think it is appropriate that we all recognize--if 
you look in the back of the room, there are the pictures of the 
towers of that horrific act on 9/11. This committee was 
actually formed by the Congress after that terrible, terrible 
attack on our Nation.
    The various subcommittees were looking at the border; there 
will be a hearing this afternoon about cyber-terrorism and 
Pakistan, appropriately enough in light of the fantastic work 
of the Navy SEAL Team 6--incredible, incredible work by our 
brave men and women, the professionalism that they have 
demonstrated, and our intel officers, the courageous decision 
by our President certainly, and the American people 
demonstrating, I think, our collective resolve as a Nation for 
getting the butcher, this terrorist, this coward, Osama bin 
Laden.
    I certainly think it was very appropriate that we dumped 
his body into the ocean, although I felt a little bit bad for 
the sharks that had to eat him. But, at any rate, it is 
something, I think, that we should recognize, the fantastic 
work of these wonderful, wonderful, fantastic patriots.
    With that, let me recognize our witnesses. I am just going 
to go through and introduce you all, and then we will start 
with Mr. Kibble.
    First of all, Deputy Director Kibble is the deputy director 
for U.S. Immigration and Customs Enforcement, also known as 
ICE. Prior to this assignment, Mr. Kibble served in several 
leadership roles at ICE headquarters. His field assignments 
included service as the group supervisor and assistant special 
agent in charge of the metropolitan Los Angeles, California, 
area. He also served as special agent in charge for HSI's 
regional field office in Denver, responsible for 17 offices in 
Colorado, Montana, Utah, and Wyoming.
    Deputy Chief Ronald Vitiello was appointed as the deputy 
chief, U.S. Border Patrol, in June 2010. He began his career 
with the Border Patrol in 1985 as a Border Patrol agent in 
Laredo, Texas. Over the past 25 years, he has held a variety of 
leadership positions in the U.S. Border Patrol, including chief 
patrol agent of the Swanton and Rio Grande Valley sectors.
    Sheriff Larry Dever is a 34-year Cochise County law 
enforcement veteran. He was elected to his first term as 
sheriff in 1996, following a 20-year career working in the 
trenches of Cochise County law enforcement. Entering the 
profession as a deputy in 1976, Sheriff Dever rose through the 
ranks from sergeant to major before successfully seeking 
political office and being re-elected to a fourth term in the 
year 2008.
    Sheriff Todd Entrekin began his law enforcement career in 
1982 as a reserve deputy. He also served as Etowah County Drug 
Task Force Commander before being appointed to fill the 
position of sheriff in 2007 by then-Governor Bob Riley. The 
sheriff is a graduate of Northeast Alabama Law Enforcement 
Academy and the FBI's National academy as well.
    Mr. Lopez began his law enforcement career in 1985, rising 
through the ranks of the sheriff's office, serving as the 
deputy sheriff, detective, deputy sergeant, and finally a 
deputy lieutenant, being promoted in April 2005. Commander 
Lopez currently is assigned to the Special Operations Bureau.
    At this time, I would recognize Deputy Director Kibble for 
his opening statement, sir. Thank you for coming.

STATEMENT OF KUMAR C. KIBBLE, DEPUTY DIRECTOR, U.S. IMMIGRATION 
    AND CUSTOMS ENFORCEMENT, DEPARTMENT OF HOMELAND SECURITY

    Mr. Kibble. Thank you.
    Chairman Miller, Ranking Member Cuellar, and distinguished 
Members of the subcommittee, on behalf of Secretary Napolitano 
and Director Morton, thank you for the opportunity to discuss 
ICE's partnerships with State, local, and Tribal law 
enforcement agencies.
    We work closely with our law enforcement stakeholders at 
all levels of government to create a seamless, united front to 
take down transnational criminal organizations and also to 
identify and remove criminal aliens.
    I would be remiss if I didn't mention the brutal attack of 
two of our agents, who were shot in the line of duty while on 
mission in central Mexico in late February. Special Agent Jaime 
Zapata lost his life, and Special Agent Victor Avila was 
seriously injured in the service of our country. Sadly, this 
tragedy is a stark reminder of the dangers confronted and the 
sacrifices made every day by our Nation's law enforcement 
officers.
    Our State and local partners have actively participated in 
major enforcement actions and investigations supporting 
Operation Fallen Hero, and we look forward to continuing these 
partnerships and bringing the perpetrators of this crime to 
justice.
    Our partnerships to disrupt and dismantle transnational 
criminal organizations include working with over 55 State and 
local law enforcement agencies that participate in 21 ICE-led 
Border Enforcement Security Task Forces along the Southwest and 
Northern borders and at seaports and in Mexico City.
    We also promote public safety by combatting the 
proliferation of transnational gangs in communities throughout 
the United States through Operation Community Shield. Since its 
inception in 2005, Community Shield has led to the arrest of 
more than 20,000 gang members and associates, 7,700 of whom had 
violent criminal histories. That also includes 249 gang leaders 
who were arrested and more than 1,600 weapons seized.
    One of the most effective methods for dismantling 
transnational criminal organizations is to attack the criminal 
proceeds that fund their illicit operations. To assist in this 
endeavor, ICE established the National Bulk Cash Smuggling 
Center in August 2009. To date, the center has initiated 348 
investigations, resulting in more than 89 arrests and more than 
77 seizures.
    I would also draw your attention to ICE's use of asset 
forfeiture and sharing to promote partnerships and to dismantle 
criminal organizations. Equitable sharing allows ICE to provide 
a portion of forfeited proceeds to State and local agencies 
that directly participate in an event leading to an ICE 
forfeiture, and it serves to encourage further cooperation 
between ICE and other agencies. In the last fiscal year, we 
shared more than $99 million with our partners.
    ICE also receives cooperation from State and local partners 
in various aspects of immigration enforcement, and this 
cooperation has enabled us to increase the number of convicted 
criminal alien removals.
    First, through the Secure Communities program, when State 
and local agencies make an arrest and book a subject into 
custody, the fingerprints they submit to FBI systems are 
checked against DHS records. If the fingerprints match those of 
someone in the DHS's biometric system, that information is 
automatically forwarded to ICE, where officers determine the 
individual's status and take appropriate enforcement action.
    Second, ICE's Criminal Alien Program ensures that those 
criminal aliens identified in jails and prisons are placed into 
removal proceedings or otherwise processed for immediate 
removal from the United States. Enforcement and removal 
operations officers and agents assigned to CAP in Federal, 
State, and local prisons and jails throughout the country 
screen inmates and place detainers on criminal aliens to 
process them for removal before they are released to the 
general public.
    Third, the 287(g) program allows a State or a local law 
enforcement entity to enter into a partnership with ICE under a 
joint memorandum of agreement, authorizing them to perform 
certain limited immigration functions. In 2009, ICE 
fundamentally reformed the 287(g) program, renegotiated and 
issued a standardized MOA, strengthening public safety and 
ensuring consistency in immigration and enforcement across the 
country by prioritizing the arrest and detention of criminal 
aliens.
    Finally, ICE works with local jurisdictions through direct 
government-to-government agreements, known as intergovernmental 
service agreements, under which local jurisdictions detain and 
provide services to ICE's detainee population while ICE works 
to process their removals. Cooperation with local partners 
under these IGSAs allows ICE efficient and flexible use of 
available detention space around the United States to meet ICE 
enforcement needs.
    Thank you again for the opportunity to appear before you 
today and for your continued support of ICE and its law 
enforcement mission. I would now be pleased to answer any 
questions.
    [The statement of Mr. Kibble follows:]

                 Prepared Statement of Kumar C. Kibble
                              May, 3, 2011

                              INTRODUCTION

    Chairman Miller, Ranking Member Cuellar, and distinguished Members 
of the subcommittee: On behalf of Secretary Napolitano and Director 
Morton, I would like to thank you for the opportunity to discuss the 
efforts of U.S. Immigration and Customs Enforcement (ICE) to coordinate 
with our State, local, and Tribal law enforcement stakeholders to 
protect National security and uphold public safety by targeting 
transnational criminal networks and terrorist organizations that seek 
to exploit our borders and America's legitimate trade, travel, and 
financial systems.
    Terrorism and criminal activity are most effectively combated 
through a collaborative multi-agency/multi-authority approach that 
encompasses Federal, State, local, and Tribal resources, skills, and 
expertise. State, local, and Tribal law enforcement partners and fusion 
centers play a critical role in the Department of Homeland Security's 
(DHS) overall strategy to protect our homeland.
    Recognizing that partnerships are essential, ICE works closely with 
our law enforcement stakeholders at all levels of government to create 
a seamless, united front to disrupt and dismantle transnational 
criminal organizations. We also work closely with State and local law 
enforcement agencies to prioritize the identification and removal of 
criminal aliens upon completion of their penal sentences. More than 
half of those we removed last year--upwards of 195,000--were convicted 
criminals, the most ever removed from our country in a single year. 
That's a more than 70 percent increase in the removal of criminal 
aliens as compared to 2008.
    ICE protects America and upholds public safety by identifying and 
dismantling criminal organizations that exploit our Nation's borders in 
furtherance of their illegal activity. Fostering partnerships with 
ICE's State, local, and Tribal law enforcement counterparts is 
essential to our Nation's safety and security and we will continue to 
forge these important strategic relationships.

             TARGETING TRANSNATIONAL CRIMINAL ORGANIZATIONS

Operation Fallen Hero
    In late February, two of our special agents were shot in the line 
of duty while on mission in central Mexico. ICE Special Agent Jaime J. 
Zapata lost his life, and Special Agent Victor Avila was seriously 
injured in the service of our country. Sadly, this tragedy is a stark 
reminder of the dangers confronted and the sacrifices made every day by 
our Nation's law enforcement officers. Our hearts and prayers continue 
to go out to the victims, our colleagues, and their families. Special 
Agent Zapata will forever be remembered as a man of courage and honor. 
ICE is committed to continuing to assist the on-going Mexican 
investigation as well as multilateral enforcement efforts here in the 
United States to ensure that the perpetrators of this crime are brought 
to justice.
    I want to stress that our working relationship with fellow law 
enforcement and civilian agencies in Mexico remains extremely positive 
and well-coordinated. The investigation determined that the attack was 
conducted by members of the Los Zetas drug trafficking organization 
(DTO). In response to this attack, ICE and its law enforcement partners 
initiated Nation-wide U.S. enforcement activities under Operation 
Fallen Hero, also widely recognized as ``Operation Bombardier,'' 
coordinated by the Drug Enforcement Administration (DEA)-led multi-
agency Special Operations Division (SOD).
    During February 23-25, 2011, agents from the DEA, ICE, Federal 
Bureau of Investigation (FBI), along with law enforcement officers from 
numerous other Federal, State, and local agencies, arrested 676 
individuals, resulting in the disruption of the operations and 
financing of Mexican DTOs in the United States, Mexico, and elsewhere 
throughout the world. Operation Bombardier was designed to put pressure 
on Mexican cartels and Mexican poly-drug organizations as a response to 
the murder of ICE Special Agent Jaime Zapata and wounding of ICE 
Special Agent Victor Avila in Mexico. In addition to the arrests, 
Operation Bombardier resulted in the seizure of 467 kilograms of 
cocaine, 21 pounds of heroin, 84 pounds of methamphetamine, 39,363 
pounds of marijuana, $12.1 million in U.S. currency, and 282 firearms. 
This SOD-supported operation included participation by DEA, Bureau of 
Alcohol, Tobacco, Firearms and Explosives, U.S. Customs and Border 
Protection, FBI, ICE, and the U.S. Marshals Service, and State and 
local law enforcement officers--approximately 3,000 Federal, State, and 
local law enforcement officers in total.
    Operation Fallen Hero is a multilateral enforcement effort 
targeting the criminal activity perpetrated by Mexican DTOs in the 
United States, with the goal of disrupting and dismantling the DTOs 
from the top down. To date, the first phase of the operation, which 
includes the results of Operation Bombardier, has resulted in 1,416 
arrests, including 782 criminal and 634 non-criminal immigration 
arrests. The 782 criminal arrests consisted of 239 arrests for 
narcotics violations, 213 for gang-related violations, 133 for criminal 
immigration violations, 51 for weapons charges, 40 for financial 
crimes, and 106 for other miscellaneous criminal violations. Operation 
Fallen Hero also resulted in seizures totaling over $12.1 million in 
U.S. currency; 53,814 pounds of marijuana; 688 kilograms of cocaine; 64 
pounds of heroin; 372 weapons; and 83 vehicles. Special agents and 
officers also initiated 157 new investigations, conducted over 3,500 
interviews, and developed 285 investigative leads.
    ICE's State and local partners have actively participated in major 
enforcement actions and investigations supporting Operation Fallen 
Hero. This is exemplified by a March 1, 2011 enforcement action in the 
Chicago area. The Lake County Sheriff's Office and the Chicago, Joliet, 
Elgin, and Aurora police departments collaborated with ICE in the 
arrest of 12 subjects, including nine violent gang members. In 
addition, on April 1, 2011, the Cameron County Sheriff's Department and 
the Brownsville Police Department assisted ICE special agents in 
Harlingen, Texas, in an operation targeting known members of Los Zetas 
DTO. During this enforcement action there were seven criminal arrests, 
25 administrative arrests for immigration violations, and the seizure 
of $4,500 and one AK-47 rifle. The continuing participation of State 
and local partners will be vital to ensuring the future success of this 
operation.

Border Enforcement Security Task Force
    ICE's most significant interagency partnership is the ICE-led 
Border Enforcement Security Task Force (BEST) initiative. ICE works 
with State and local law enforcement agencies participating in the BEST 
initiative on a daily basis. DHS formally adopted the BEST initiative 
in 2006 to leverage Federal, State, local, Tribal, and foreign law 
enforcement and intelligence resources in an effort to identify, 
disrupt, and dismantle organizations that seek to exploit 
vulnerabilities along our borders and threaten the overall safety and 
security of the American public.
    As of fiscal year 2011, the BEST initiative is comprised of 
approximately 355 members representing various Federal, State, local, 
and foreign law enforcement agencies who work jointly in a variety of 
capacities to investigate transnational criminal activity along our 
shared land borders and in major seaports. Currently there are over 55 
State and local law enforcement agencies participating in the 21 BEST 
task forces along the Southwest and Northern borders, at seaports, and 
in Mexico City.
    The success of BEST is evident in the investigations and arrests it 
has produced. In January 2011, for example, three Canadian citizens 
attempted to enter the United States at the Detroit Windsor Tunnel. 
During a secondary inspection, U.S. Customs and Border Protection (CBP) 
officers discovered approximately 10,773 ecstasy pills. ICE agents 
worked with Canadian BEST partners from the Windsor Police Service 
(WPS) and Ontario Provincial Police on the initial response at the Port 
of Entry. These efforts led to the prosecution of one of the subjects. 
Then, based on information developed during the interviews and an 
attempted controlled delivery, BEST partners from the WPS issued arrest 
warrants for two subjects in Canada, one of whom is already under 
indictment in the United States and is currently facing extradition.

Transnational Gangs
    Operation Community Shield, an ICE-led anti-gang program, combines 
ICE's expansive statutory and administrative enforcement authorities 
with our law enforcement partnerships at all levels. Community Shield 
increases public safety by combating the growth and proliferation of 
transnational gangs in communities throughout the United States. ICE 
conducts targeted enforcement operations using criminal arrest and 
administrative removal authorities against gang members, thereby 
disrupting the ability of gangs to operate. In addition, these targeted 
enforcement operations lead to the development of information critical 
to the successful prosecution of transnational gang members for 
conspiracy- and racketeering-related violations.
    Through Community Shield, ICE partners with State and local law 
enforcement agencies in both formal and informal arrangements. ICE 
currently has seven domestic Operation Community Shield Task Forces, 
with 48 State and local law enforcement agencies participating. ICE 
Homeland Security Investigations (HSI) also works with hundreds of 
State and local law enforcement agencies on a more informal basis. ICE 
HSI National Gang Unit agents partner with State and local agencies to 
conduct Operation Community Shield Surge Operations, local gang 
suppression operations, and by providing mutual assistance on 
investigations.
    Since its inception in 2005, Operation Community Shield has led to 
the arrest of more than 20,000 gang members and associates, 7,699 of 
whom had violent criminal histories. In addition, 249 gang leaders have 
been arrested and 1,646 weapons have been seized.

National Bulk Cash Smuggling Center
    On August 11, 2009, ICE officially launched the National Bulk Cash 
Smuggling Center (BCSC), a 24/7 investigative support and operations 
facility co-located with the Law Enforcement Support Center (LESC) in 
Williston, Vermont. Since its launch, the BCSC has undertaken a full 
assessment of the bulk cash smuggling threat and has developed a 
strategic plan to address the problem.
    The BCSC utilizes a systematic approach to identify vulnerabilities 
and disrupt the flow of illicit bulk cash at the Southwest border and 
beyond. By analyzing the movement of bulk cash as a systematic process, 
ICE develops enforcement operations to defeat the various smuggling 
methodologies currently employed by trafficking organizations, as well 
as anticipate future tactics. This approach allows us to more 
efficiently and effectively utilize our interdiction and investigative 
resources.
    To date, the BCSC has initiated 348 investigations, which have 
resulted in more than 89 arrests and more than 77 seizures. In July and 
August 2010, ICE Special Agents working in conjunction with State and 
local law enforcement officers seized more than 4,000 pounds of 
narcotics stemming from a BCSC investigation into a criminal 
organization based in New York City and Philadelphia that was 
responsible for the movement of bulk cash across the Southwest border. 
This investigation has resulted in four arrests and the seizure of more 
than $3 million in proceeds connected to narcotics. ICE continues to 
work with its partners in Arizona, Maryland, Texas and New York to 
identify additional associates of this trafficking organization.
    ICE is further cooperating with both foreign and domestic law 
enforcement partners to disrupt the criminal organizations that are 
smuggling narcotics into the United States and smuggling bulk cash 
shipments out. The expanding relationship between ICE's BCSC, the Drug 
Enforcement Administration's (DEA) El Paso Intelligence Center (EPIC), 
State and major urban area fusion centers, and the High Intensity Drug 
Trafficking Areas (HIDTAs) program are a key component of these 
efforts. In addition ICE'S BCSC is partnering with the National Drug 
Intelligence Center and the Organized Crime Drug Enforcement Task Force 
of the Department of Justice to produce a National Bulk Cash Threat 
Assessment that will provide a clear and comprehensive strategic 
picture of bulk cash smuggling in the United States.
    Recognizing each entity's distinct, but complementary roles, the 
BCSC is currently coordinating the establishment of the Bulk Cash 
Smuggling Center Intake & Analysis Section (BCSC I&A) with our law 
enforcement counterparts at EPIC. The BCSC I&A will function as a 
single point of contact for State and local law enforcement entities to 
report bulk currency interdictions and receive immediate real-time 
analysis and support. In addition, the broader BCSC will focus its 
expertise in financial investigations on DHS-driven bulk cash smuggling 
investigations and initiatives to further strengthen the relationship 
between the two centers.

Fraud in the Visa and Labor Certification Process
    ICE's efforts to uphold public safety also include identifying, 
investigating, and penalizing employers who engage in visa or labor 
certification fraud. Perpetrators of document and benefit fraud usually 
receive documents, whether counterfeit or legitimately issued through 
fraud, that could be used to open bank accounts, enter public buildings 
and obtain employment. Unchecked, one benefit fraud facilitator can be 
responsible for hundreds of aliens obtaining benefits and jobs to which 
they are not legally entitled. Since the start of fiscal year 2009, ICE 
has initiated 694 cases involving the H and L non-immigrant employment 
based visa categories, made 106 criminal arrests and 190 administrative 
arrests, obtained 116 convictions, and seized a total of $14,083,080.
    In one recent case conducted by ICE in Norfolk, Virginia, agents 
targeted a vast interstate criminal organization with international 
ties involved in the production and distribution of fraudulent 
immigration and identification documents. While Operation Phalanx 
initially focused on the organization's activities in the Norfolk area, 
agents ultimately uncovered definitive links to several other cells 
located in Tennessee, Kentucky, Arkansas, Rhode Island, Missouri, 
Connecticut, Massachusetts, Ohio, Indiana, and North Carolina.
    Over the course of the investigation, with the considerable support 
of the Virginia State Police, Chesterfield County (VA) Police 
Department, and the Little Rock (AR) Police Department, ICE determined 
that the Fraudulent Document Organization (FDO) structured its 
operations through an intricate business-type model. Agents determined 
that the command-and-control apparatus of the organization was based in 
Mexico and that it maintained strict control over the pricing and 
quality of the documents being produced by each cell.
    In November 2010, ICE coordinated the Nation-wide simultaneous 
takedown of the FDO. As a result, 17 HSI offices executed a total of 18 
search warrants, arrested 25 members of the FDO based on criminal 
charges presented in the indictment, arrested six additional 
individuals via criminal complaint, and arrested 36 individuals for 
administrative immigration violations. To date, 10 of the 27 defendants 
being prosecuted in the Eastern District of Virginia have pled guilty. 
Eight have pled guilty to violations of Title 18 USC 1028(f), 
Conspiracy to Produce and Distribute Counterfeit Identity Documents; 
two have pled guilty to violations of Title 18 USC 1962(d), 
Racketeering and Title 18 USC 1956(h), Money Laundering. The remaining 
four defendants are pending prosecution in other Federal judicial 
districts for charges deemed outside of the Operation Phalanx 
conspiracy.

Use of Forfeited Proceeds
    ICE uses asset forfeiture to disrupt and dismantle criminal 
organizations and to support law enforcement operations through the 
sharing of assets with State, local, and international law enforcement.
    Equitable sharing allows ICE to provide a portion of forfeited 
proceeds to agencies that directly participated in ICE forfeiture, and 
serves to encourage further cooperation between the recipient agency 
and ICE. The amount shared must reflect the degree of direct 
participation of the law enforcement agency in the investigation 
resulting in the forfeiture. All property shared with a participating 
agency, and any income generated by this property, must be used for law 
enforcement purposes. In fiscal year 2010 ICE shared $99,051,318 with 
its law enforcement partners.

Joint Operations/State and Local Overtime
    The Joint Operations/State and Local Overtime (SLOT) program allows 
the Treasury Forfeiture Fund (TFF) to reimburse State and local 
agencies up to $15,000 for overtime paid per officer (annually) for 
joint investigations and operations with ICE. These funds allow ICE to 
draw on the knowledge and experience of local, county, and State law 
enforcement officers to act as a force multiplier. Currently, more than 
900 agencies participate in the ICE Joint Operations/SLOT program. In 
fiscal year 2010, the SLOT program paid out $6,299,000.

                 PARTNERSHIPS TO IMPROVE PUBLIC SAFETY

Office of State, Local, and Tribal Coordination
    ICE has formed the Office of State, Local, and Tribal Coordination 
(OSLTC) to build and improve relationships, coordinate activities and 
provide support to State, local, and Tribal law enforcement agencies. 
The ICE Agreements of Cooperation in Communities to Enhance Safety and 
Security (ICE ACCESS) program was developed to promote the various 
programs or tools that ICE offers to assist State, local, and Tribal 
law enforcement agencies.
    ICE has made great strides in fiscal year 2011 to sustain and 
expand its outreach efforts to strengthen and build relationships with 
State and local officials and law enforcement agencies to enhance 
public safety. In this fiscal year alone, ICE OSLTC has participated in 
more than 100 meetings and conferences with State, local, and Tribal 
government law enforcement organizations.
    An example of ICE's recent outreach efforts is the ICE Tool Kit for 
Prosecutors. This resource was developed to help prosecutors navigate 
situations where important witnesses, victims, or defendants may face 
removal because they are illegally present in the United States. ICE is 
committed to supporting the efforts of prosecutors to bring criminals 
to justice. The ICE Tool Kit for Prosecutors is being distributed 
through our HSI Special Agent in Charge Offices, Enforcement and 
Removal Operations (ERO) Field Offices, and Offices of the Chief 
Counsel. Our prosecutorial partners are encouraged to engage ICE 
officers, special agents, and attorneys as well as seek their 
assistance and expertise.

Law Enforcement Information Sharing Service
    DHS has also expanded its partnership with State, local, and Tribal 
law enforcement through the Law Enforcement Information Sharing (LEIS) 
Service. LEIS is a web-based data exchange platform, hosted by DHS, 
that supports State and urban area fusion centers and law enforcement 
agencies at all levels to rapidly share and access data related to 
criminal and National security investigations. The automated LEIS 
Service offers a more efficient system for requesting and sharing 
investigative information, helping investigators to more quickly 
identify patterns, connections and relationships between individuals 
and criminal organizations. Approximately 26.7 million-plus records 
from DHS data sources are available for sharing with LEIS Service 
users. The service has been successfully deployed on a regional basis 
in San Diego, Los Angeles, Seattle, Arizona, and Texas.

Cooperative Immigration-Related Programs
    ICE also receives cooperation from State and local partners in 
various aspects of immigration enforcement. This cooperation has 
enabled ICE to increase the number of convicted criminal removals.
    First, through the Secure Communities program, when State and local 
law enforcement agencies make an arrest and book a subject into 
custody, the fingerprints they submit to the Federal Bureau of 
Investigation's (FBI) Integrated Automated Fingerprint Identification 
System (IAFIS) are checked against the biometrics-based immigration and 
law enforcement records in DHS' Automated Biometric Identification 
System. If the fingerprints match those of someone in DHS's biometric 
system, the system automatically sends this information to ICE's LESC, 
where officers research and determine the individual's status. The LESC 
then forwards the status information to the ICE field office, which 
determines appropriate enforcement action.
    Second, ICE's Criminal Alien Program (CAP) ensures that those 
criminal aliens identified in jails and prisons are placed into removal 
proceedings or otherwise processed for immediate removal from the 
United States. Enforcement and Removal Operations (ERO) officers and 
agents assigned to CAP in Federal, State, and local prisons and jails 
throughout the country screen inmates and place detainers on criminal 
aliens to process them for removal before they are released to the 
general public.
    Third, the 287(g) Program allows a State or local law enforcement 
entity to enter into a partnership with ICE under a joint Memorandum of 
Agreement (MOA) which authorizes them to perform certain immigration 
functions otherwise reserved for Federal officials. In 2009, ICE 
fundamentally reformed the 287(g) Program, renegotiated and issued a 
standardized MOA, strengthening public safety, and ensuring consistency 
in immigration enforcement across the country by prioritizing the 
arrest and detention of criminal aliens. ICE now requires 287(g) 
officers to maintain comprehensive alien arrest, detention, and removal 
data in order to ensure operations focused on criminal aliens, who pose 
the greatest risk to public safety and community. ICE also strengthened 
the 287(g) basic training course and created a refresher training 
course, providing detailed instruction on the terms of the new MOA and 
the responsibilities of a 287(g) officer.
    Fourth, ICE works with local jurisdictions through direct 
government-to-government agreements known as intergovernmental service 
agreements (IGSAs), under which local jurisdictions detain and provide 
services to ICE's civil detainee population while ICE works to process 
their removals. Cooperation with local partners under IGSAs allows ICE 
efficient and flexible use of available detention space around the 
United States to meet ICE enforcement needs. ICE is able to ensure high 
standards for detainee care and detainee access to services by working 
with local governments.

                               CONCLUSION

    I thank the committee for its support of ICE and our law 
enforcement mission. Your support is vital to our work. Your continued 
interest in and oversight of our actions is important to the men and 
women at ICE, who work each day to ensure the safety and security of 
the United States. I would be pleased to answer any questions you have 
at this time.

    Mrs. Miller. Thank you very much, Deputy Director Kibble.
    The Chairwoman now recognizes Deputy Chief Vitiello for his 
opening comments, as well.

 STATEMENT OF RONALD VITIELLO, DEPUTY CHIEF, U.S. CUSTOMS AND 
       BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Vitiello. Thank you, Chairwoman Miller, Ranking Member 
Thompson, Ranking Member Cuellar, and distinguished Members of 
the subcommittee. It is a privilege and honor to appear before 
you today to discuss U.S. Customs and Border Protection's 
cooperative efforts with State, local, Federal, and Tribal law 
enforcement partners.
    I am Ronald Vitiello, deputy chief of the United States 
Border Patrol. I began my career in law enforcement in 1985 as 
a Border Patrol agent in Laredo, Texas. Throughout my career, I 
have held numerous positions within the organization, both on 
the Southern and Northern borders, including my current 
assignment in Washington, DC.
    Next week is the National Police Week ceremony in 
Washington, and I would like to begin by recognizing those in 
all levels of law enforcement who have given their lives in 
service to our mission. The death of a fellow officer is a 
traumatic event and an extremely emotional experience felt not 
only by the members of the law enforcement community, their 
families, but also our law enforcement family.
    CBP will be honoring seven of our fallen heroes, along with 
other police agencies and sheriffs' departments from around the 
country. The loss of these brave men and women is a stark 
remainder of the sacrifices made by the law enforcement 
community. It also strengthens our resolve to continue to do 
everything in our power to protect against, mitigate, and 
respond to all threats and to secure our borders.
    In law enforcement, the most basic principle we have is 
trust, and trust is built on a foundation of partnerships and 
common goals. Law enforcement is a difficult job and is 
tirelessly performed by dedicated men and women across all 
levels of government. Our Federal, State, local, Tribal, and 
international partnerships are critical to the success of each 
of our missions. We are committed to continuing and expanding 
this collaboration.
    I would like to be clear, the border is a far different 
place today than it was when I began my career. I have 
personally witnessed the evolution of the border over the past 
26 years, both in terms of additional resources applied against 
the threat as well as the change in the adversary's tactics as 
they attempt their border crimes.
    Although we have seen positive indicators of a more secure 
border, our work continues and will not end as long as people 
seek to enter this country illegally. The Border Patrol's 
National strategy was implemented in 2004 and called for 
achieving control of the borders with the proper mix of 
personnel, tactical infrastructure, and technology. We sought 
to gain, maintain, and expand the control of the border. With 
the assistance of Congress, we have seen an unprecedented 
influx of resources. We are currently at a pivot point, 
shifting from a gain mode to maintaining and expanding our 
security efforts.
    Our agents and officers are on the line every day, day-in 
and day-out, protecting and interacting with the communities in 
which they live. Our employees on the front lines work hand-in-
hand with local law enforcement officers. Due to the fact that 
Border Patrol and air and marine agents operate in rural or 
remote locations, we are often the first on the scene of an 
accident or we are called upon to assist during local police 
work.
    Our goal is to build effective relationships between CBP 
and the State, local, and Tribal governments through regular, 
transparent, and proactive communications to allow for a 
meaningful discussion on a range of issues in order to create a 
unified, effective approach to our mutual enforcement 
challenges with respect to border security.
    While our work is not done, key indicators show that these 
collaborative border security efforts are producing results. 
Statistics have shown that some of the safest cities and 
communities in America are along the border. Violent crimes in 
the Southwest border counties overall have dropped by more than 
30 percent and are currently among the lowest in the Nation per 
capita, even as drug-related violence significantly has 
increased in Mexico.
    Nonetheless, we must build on the progress made to ensure 
that those citizens living along the border are secure in their 
communities. CBP has learned that it will take a whole-of-
Government approach in law enforcement, each with our own 
duties, responsibilities, and authorities and at all levels of 
government--Federal, State, local, and Tribal. We must move 
from mere coordination and move toward operational integration 
with our Federal, State and local, Tribal, as well as our 
international partners, driving forward and realize the 
strength of joint planning and implementation in a targeted and 
focused manner with a unity of effort.
    Our disciplined path forward in border security must 
include a risk-based approach. Accordingly, we will 
increasingly depend on information and intelligence to describe 
the intent and capability of our adversaries, thus defining the 
threat while continuously assessing our border vulnerabilities. 
We must be more mobile, agile, and flexible than those 
adversaries.
    Thank you for the opportunity to testify today. I look 
forward to your questions.
    [The statement of Mr. Vitiello follows:]

                 Prepared Statement of Ronald Vitiello
                              May 3, 2011

    Chairwoman Miller, Ranking Member Cuellar, and distinguished 
Members of the subcommittee, it is a pleasure to appear before you 
today to discuss U.S. Customs and Border Protection's (CBP) cooperative 
efforts with our Federal, State, local, and Tribal law enforcement 
partners. I am Ronald Vitiello, Deputy Chief of the United States 
Border Patrol.
    I'd like to begin by recognizing those at all levels of law 
enforcement who have given their lives in service to our mission. The 
loss of these brave men and women is a stark reminder of the sacrifices 
made by the law enforcement community. It also strengthens our resolve 
to continue to do everything in our power to protect against, mitigate, 
and respond to threats and secure our border.
    As America's frontline border agency, CBP's priority mission is to 
protect the American public while facilitating lawful travel and trade. 
To do this, CBP has deployed a multi-layered, risk-based approach to 
enhance the security of the people and goods entering and leaving the 
United States. This layered approach to security reduces our reliance 
on any single point or program that could be compromised. It also 
extends our zone of security outward, ensuring that our physical border 
is not the first or last line of defense, but one of many.
    We rely on the appropriate combination of personnel, 
infrastructure, and technology to secure our borders. This three-
pronged strategic balance of resources reflects the reality that one of 
these elements cannot, in and of itself, secure our Nation's borders. 
We also rely on strong partnerships with Federal, State, local, and 
Tribal law enforcement agencies, as well as with the private sector. 
Coordination and cooperation among all entities that have a stake in 
our mission is paramount.
    Over the past 2 years, the Department of Homeland Security (DHS) 
has dedicated historic levels of personnel, technology, and resources 
to the Southwest border. We increased the size of the Border Patrol to 
more than 20,700 agents today, more than double the size it was in 
2004. We have constructed 649 miles of fencing, including 299 miles of 
vehicle barriers and 350 miles of pedestrian fence, where Border Patrol 
field commanders determined it was operationally required.
    While there is still work to be done, every key measure shows we 
are making significant progress along the Southwest border. Border 
Patrol apprehensions have decreased 36 percent in the past 2 years, and 
are less than a third of what they were at their peak. In fiscal year 
2010, CBP seized $147 million in currency (inbound and outbound) at and 
between the ports of entry (POEs), a 34 percent increase from the 
previous fiscal year. CBP also seized 4.1 million pounds of narcotics, 
including 870,000 pounds seized at the POEs, 2.4 million pounds seized 
between the POEs, and 831,000 pounds assisted by Air and Marine 
interdiction agents. These numbers demonstrate the effectiveness of our 
layered approach to security.
    As we continue to assess and support the investments in the 
manpower, technology, and infrastructure that have proven so effective 
over the past 2 years, we will continue to deploy these resources in 
the most risk-based and effective manner in order to keep our borders 
secure and the communities along them safe. Additionally, we will 
continue to increase partnerships with Federal, State, local, and 
Tribal law enforcement agencies, as well as with the private sector, to 
add strengths and linkages as we protect and strengthen American 
communities along our borders.
    CBP's immigration and customs inspectional authorities are derived 
from Title 8 and Title 19 of the U.S. Code, respectively. Additionally, 
some of our agents and officers are cross-designated with limited 
authority under Title 21, empowering them to make arrests and seizures 
at U.S. borders and ports of entry. Another 39 officers are cross-
designated with full Title 21 authority under Title 21 and are assigned 
to DEA Task Forces, empowering them to conduct drug investigations.
    Throughout CBP's history, as well as in our legacy agencies, CBP 
officers and agents have been called upon to assist in law enforcement 
missions beyond the border security realm. Our agents and officers have 
been cross-deputized as U.S. Marshals or deputized by local law 
enforcement in order to assist in National emergency situations. Most 
recently, CBP officers and agents were deputized in North Dakota as 
Cass County deputies by Sheriff Laney in order to aid following the 
flooding that began on April 5, 2011. The CBP Office of Air and Marine 
is currently providing fixed wing, helicopter, and Unmanned Aircraft 
System surveillance support for the Federal Emergency Management Agency 
and State and local agencies.
    Our employees are on the frontlines and work hand-in-hand with 
local law enforcement officers. Due to the fact that the Border Patrol 
and Air and Marine agents operate in rural or remote locations, we are 
often the first on the scene of an accident, or we are called upon to 
assist during routine police work. For example, in the Blaine Sector in 
Northern Whatcom County, Washington, CBP communications specialists are 
responsible for 9-1-1 calls, dispatching for the Blaine, Sumas, and 
Lynden Police departments. In September 2010, air interdiction agents 
supported the Whatcom County Sheriff's office in searching for and 
locating an armed man who was firing shots near a residence in Kendal, 
Washington. A CBP helicopter provided aerial support while the arrest 
was made and the trailer in which the man was hiding was cleared.
    This is just one of numerous examples of Border Patrol assistance 
to State and local law enforcement agencies. In October 2010, Border 
Patrol agents assisting the California Highway Patrol responded to a 
citizen's report of an overturned vehicle in a lagoon. The agents were 
able to extricate the victim and render aid until Emergency Medical 
Service personnel arrived. Additionally, this month, air interdiction 
agents from the Montana Air Branch assisted the Lewis and Clark County 
Sheriff's department in locating a missing hiker who had been reported 
lost and was at high risk for hypothermia and frostbite due to winter 
weather conditions. Local law enforcement partners also support us--
just last week, Pima County Sheriff's deputies working at a Border 
Patrol checkpoint responded to and rendered aid at a nearby motorcycle 
accident.

           CULTIVATING STATE, LOCAL, AND TRIBAL PARTNERSHIPS

    Law enforcement is a difficult job and is tirelessly performed by 
dedicated men and women across all levels of government. Our Federal, 
State, local, Tribal, and international partnerships are critical to 
the success of our mission, and we are committed to continuing to 
expand this collaboration.
    Within CBP, we established the State, local, and Tribal liaison 
office which is responsible for advising senior leadership regarding 
the impact of CBP policies and initiatives on State and local 
stakeholders. The liaison office works to inform State and local 
stakeholders of current and proposed CBP programs, assists these 
stakeholders in addressing questions or concerns about CBP programs, 
and assists in building and maintaining partnerships with CBP. The aim 
is to build effective relationships between CBP and State, local, and 
Tribal governments through regular, transparent, and proactive 
communications to allow for meaningful discussion on a range of issues 
in order to create a unified, effective approach to our mutual 
challenges with respect to border security. For instance, we have 
worked with Native American communities across the Nation to strengthen 
our partnerships with Tribal law enforcement, specifically with the 
Tohono O'odham Nation in Arizona and the Blackfeet Nation in Montana.
    CBP works with our Federal, State, local, Tribal, and international 
partners to address smuggling along the Southwest border and to combat 
transnational threats. CBP hosts a weekly briefing/teleconference with 
State and local partners regarding the current state of the border. 
These calls were instituted to establish and continually refine a 
mechanism to monitor emerging trends and threats along the Southwest 
border with a specific focus on the Arizona corridors and to provide a 
cross-component, multi-agency venue for discussing trends and threats. 
The weekly briefing focuses on CBP narcotics, weapons, and currency 
interdictions and alien apprehensions both at and between the POEs 
across the Southwest border. These briefings/teleconferences currently 
include more than 290 participants representing agencies and units 
across law enforcement, Department of Defense, and the intelligence 
community. Examples of participants include: U.S. Coast Guard; Drug 
Enforcement Administration (DEA) and the DEA-led El Paso Intelligence 
Center (EPIC); Immigration and Customs Enforcement (ICE); National Drug 
Intelligence Center; U.S. Northern Command; Joint Interagency Task 
Force--North; Joint Task Force-South; Bureau of Alcohol, Tobacco, 
Firearms, and Explosives; Federal Bureau of Investigation; U.S. 
Attorneys' Offices; Canada Border Services Agency; Naval Investigative 
Command; State and major urban area fusion centers; and local law 
enforcement.

                      WHOLE-OF-GOVERNMENT APPROACH

    Our overarching border security efforts require a whole-of-
government approach that emphasizes the importance of joint planning 
and intelligence sharing. In recent months, we have taken additional 
steps to bring greater unity to our enforcement efforts, expand 
coordination with other agencies, and improve response times. In 
February, we announced the Arizona Joint Field Command--an 
organizational realignment that brings together Border Patrol, Air and 
Marine, and Field Operations under a unified command structure to 
integrate CBP's border security, commercial enforcement and trade 
facilitation missions to more effectively meet the unique challenges 
faced in the Arizona area of operations.
    Another example of our collaborative efforts along the Southwest 
border is the Alliance to Combat Transnational Threats (ACTT) in 
Arizona. The ACTT is an enforcement collaboration, established in 
September 2009, that leverages the capabilities and resources of more 
than 60 Federal, State, local, and Tribal agencies in Arizona and the 
Government of Mexico to combat individuals and criminal organizations 
that pose a threat to communities on both sides of the border. Through 
ACTT, we work with our international, Federal, State, local, and Tribal 
law enforcement partners to increase collaboration; enhance 
intelligence and information sharing; and develop coordinated 
operational plans that strategically leverage the unique missions, 
capabilities and jurisdictions of each participating agency. Since its 
inception, ACTT has resulted in the seizure of more than 1.6 million 
pounds of marijuana, 3,800 pounds of cocaine, and 1,000 pounds of 
methamphetamine; the seizure of more than $13 million in undeclared 
U.S. currency and 268 weapons; nearly 14,000 aliens denied entry to the 
United States at Arizona ports of entry due to criminal background or 
other disqualifying factors; and approximately 270,000 apprehensions 
between ports of entry.
    In partnership with DEA, and with support from the Department of 
Defense, DHS has achieved initial operational capability for the new 
Border Intelligence Fusion Section (BIFS) as part of the El Paso 
Intelligence Center. This new section will integrate and synthesize all 
available Southwest border intelligence from Federal, State, local, and 
Tribal partners to create a common intelligence picture to support 
border enforcement activities on the Southwest border. By disseminating 
real-time operational intelligence to our law enforcement partners in 
the region, BIFS will streamline and enhance coordinated Federal, 
State, local, and Tribal operations along the border. Additionally, we 
are continuing to work with Mexico to develop a cross-border 
communications network that will improve our ability to coordinate law 
enforcement and public safety issues.
    Along the Northern border, CBP has established the Operational 
Integration Center (OIC) located at Selfridge Air National Guard Base 
in Harrison Township, Michigan. The OIC is a demonstration project to 
enhance border security and situational awareness for CBP and its 
mission partners along a critical area of the Northern border by 
integrating personnel and technology. In terms of personnel, the OIC 
allows for a collaborative work area and communications capabilities 
for all components of CBP, the U.S. Coast Guard, other DHS entities, 
Federal law enforcement agencies, State and local law enforcement, and 
appropriate Canadian agencies. The OIC brings together information 
feeds, including radar and camera feeds, blue force tracking, database 
query from databases not previously available to CBP, remote sensor 
inputs, Remote Video Surveillance Systems, and Mobile Surveillance 
Systems feeds, and video from various POE, tunnel and local traffic 
cameras. This level of personnel and technology integration may serve a 
model for technology deployments on the Northern border.
    CBP is engaged with several National initiatives which all assist 
and add to the border security mission. Our officers and agents provide 
support to the Integrated Border Enforcement Teams (IBET) which operate 
as intelligence-driven enforcement teams comprised of U.S. and Canadian 
Federal, State/provincial and local law enforcement personnel. By 
incorporating integrated mobile response capability (air, land, 
marine), the IBETs provide participating law enforcement agencies with 
a force multiplier--maximizing border enforcement efforts. Our 
personnel additionally provide manpower to Border Enforcement Security 
Task Force (BEST) units, multi-agency teams which collaborate to 
identify, disrupt and dismantle criminal organizations which pose 
significant threats to border security.
    In addition to these efforts, Operation Stonegarden (OPSG) grants 
are available and designed to incorporate the services of State, local, 
and Tribal law enforcement agencies for the purpose of enhancing border 
security, while simultaneously mitigating the conspicuous effects of 
human trafficking organizations. While the grants themselves are 
managed by the Federal Emergency Management Agency, the participating 
agencies are required to submit operations orders to the Border Patrol. 
The Border Patrol is responsible for ensuring that all operations 
funded by this grant have a direct nexus to border security.
    CBP has also partnered with State and local law enforcement for 
certain outbound operations at POEs. Over the years, the personnel at 
the POEs along the Southwest border have developed good working 
relationships with State and local law enforcement agencies. State and 
local law enforcement officers are a tremendous asset to CBP as they 
act as force multipliers, bringing their knowledge of the community, 
and their understanding of local criminal elements. Joint outbound 
operations target proceeds, firearms, ammunition, stolen vehicles, and 
fugitives.
    Additionally, a Processing, Exploitation, and Dissemination cell 
has been established at the Air and Marine facilities in Riverside, 
California, and Grand Forks, North Dakota, to provide essential 
information to law enforcement across the Nation--increasing 
understanding of evolving threats and providing the foundation for law 
enforcement entities to exercise targeted enforcement in the areas of 
greatest risk. This intelligence-driven approach prioritizes emerging 
threats, vulnerabilities, and risks, greatly enhancing our border 
security efforts.
    Building on a legacy initiative, in 2005, CBP created a robust 
Information Sharing Environment known as ``BigPipe'', which links 
equipped CBP aviation assets, via the internet and information sharing 
protocols, to Federal, State, local, and Tribal law enforcement 
agencies in order to provide near-real time video and sensor data--
enhancing the situational awareness of officers across the law 
enforcement community. Additionally, BigPipe is used extensively by 
numerous Federal, State, local, and Tribal agencies during warrant 
presentations, controlled deliveries, search and rescue, and 
surveillance operations.

                               CONCLUSION

    While our work is not done, every key metric shows that these 
collaborative border security efforts are producing significant 
results--in fact, studies and statistics have shown that some of the 
safest cities and communities in America are along the border. Violent 
crimes in Southwest border counties overall have dropped by more than 
30 percent and are currently among the lowest in the Nation per capita, 
even as drug-related violence has significantly increased in Mexico. 
Nonetheless, we must build on the progress made to ensure that those 
citizens living along the border are secure in their communities.
    Chairwoman Miller, Ranking Member Cuellar, and Members of the 
subcommittee, thank you for this opportunity to testify about the work 
of U.S. Customs and Border Protection. CBP is committed to providing 
our frontline agents and officers with the tools they need to 
effectively achieve their primary mission of securing America's 
borders. We look forward to continuing to work closely with our 
Federal, State, local, Tribal, and international partners in these 
efforts. I would be pleased to answer any questions you may have at 
this time.

    Mrs. Miller. Thank you very much, Chief Vitiello. You know, 
you made your opening comments talking about some of your 
fallen officers. Please know that we say a prayer of 
thanksgiving every day for all of the officers in Border Patrol 
and others that have given their lives and those that are 
working 24/7, as well, so bravely to protect our borders.
    With this, the Chairwoman would now recognize Sheriff Dever 
for his testimony. Thank you for coming, sir.

 STATEMENT OF LARRY A. DEVER, COCHISE COUNTY SHERIFF'S OFFICE, 
                            ARIZONA

    Sheriff Dever. Chairwoman Miller, Ranking Member Thompson, 
Ranking Member Cuellar, and Members of the committee, it is 
nice to see so many familiar faces sitting up there. It gives 
great comfort and helps build confidence.
    The fact that your faces are familiar speaks to a very 
important fact and something that has occurred in the past few 
years that we had never seen before and really unprecedented 
when we talk about application of resources and attention to 
this very critical matter of our homeland security. That is the 
fact that you have been there. You have come to visit, and you 
have paid attention and have made special effort. I greatly 
appreciate that. We appreciate it very much, those of us who 
live and work there every day.
    I apologize, I have been a little bit under the weather. My 
voice comes and goes. So if it fails me--it is like my 
eyesight. It fails me on occasion, as well.
    Cochise County is in the Southeast corner of Arizona. We 
have 83\1/2\ miles of international border with Mexico and have 
long been a primary transshipment zone for narcotics and, since 
1998, for human smuggling, when the floodgates literally opened 
in that area.
    In the year 2000, Border Patrol apprehended some 620,000 
illegal aliens in the Tucson sector alone in the Southeast 
corner of Arizona to central. That number is down to around 
220,000 now. These statistics are often cited as demonstrating 
a more secure border. Senior leadership at DHS has frequently 
said that the border is more secure than ever.
    I will tell you that I have been there forever, and I have 
a little different perspective. While the border is more secure 
in more places more often than it was 10 years ago, it is still 
a very unsettled and definitely a more unsafe place than it was 
when I started working there in 1976.
    The reason for that was mentioned by my compadre here to my 
right, and that is because the nature of the enemy has changed 
significantly. They are much more dire. They put on a much more 
deadly face. They are much more serious about protecting their 
invested interest, both in human and contraband smuggling.
    There is something else that I think is important. In their 
own words--and I recently had a conversation with Chief Fisher 
is that the term ``border security'' still has not been clearly 
defined in the lexicon and in the language in the Department of 
Homeland Security. There are varying definitions of that in the 
public, in local law enforcement, in the Federal realm. That 
needs to occur very quickly so that we know where we are going. 
If we don't have a clearly defined objective, you can never 
wisely and smartly deploy assets to solving the problem.
    This next thing that is going on, frankly--and, Chairwoman 
Miller, you mentioned this--Department of Justice and 
Department of Homeland Security have disparate objectives here, 
to a very large degree. While Homeland Security, since 
September 11, has reached out--in fact, this Friday, I am 
attending a meeting with DHS officials on partnerships and 
empowerment and how we can build upon those and successes of 
the past. I have attended several of those meetings. But 
Department of Justice, at the same time, is suing the State of 
Arizona for its attempts to step up to the plate and do 
something very proactive. Until we bridge that gap, there is 
going to continue to be conflict.
    You have heard a lot about this ``turn back south'' stuff. 
Originally that was a model for the fence, but that seems to 
have gravitated north of the fence and is being addressed by 
CBP officials. But ``turn back south'' is occurring at a 
different level, and that is the judicial and prosecutorial 
level, where DHS says that they intend to hold everybody 
accountable and have consequences for illegal border crossers; 
Department of Justice is refusing to prosecute until certain 
thresholds are met, in terms of numbers of illegal aliens being 
smuggled, in terms of quantities of narcotics that meet those 
thresholds. I could go on and on and on.
    The bottom line is my good friend, Rob Krentz, was murdered 
about a year ago. I can tell you about a couple who were tied 
up in their home and everything was stolen and loaded in their 
car and driven off recently. Two weeks ago, a man who 
disappeared from his home who was involved in the smuggling 
business, had been trying to get out, and hasn't been seen 
since, from my county.
    So violence has spilled over and will continue to be on our 
horizon and part of our landscape until we fully get control of 
the border. We must define what that control objective is 
before we can achieve it.
    I will say this--and my time is gone. Border Patrol, as was 
stated, is very often our first responders out in the rural 
areas of the county. We appreciate the heck out of it. They 
work hard, and we work well together. There is some stuff that 
needs to be resolved at the senior levels still, where we have 
differing opinions of what needs to happen, and we will 
continue to work on that.
    Thank you very much.
    [The statement of Sheriff Dever follows:]

              Prepared Statement of Sheriff Larry A. Dever
                              May 3, 2011

                              INTRODUCTION

    Cochise County, Arizona constitutes approximately 6,200 square 
miles of the Southeast corner of the State. We share 83.5 miles of 
international border with Mexico. It is one of four counties that 
comprise the Tucson Sector of the Border Patrol. There are 9 such 
sectors along the Southwest border of the United States. For the past 
several years, beginning in 1999, this area has led the Nation in 
apprehensions of illegal aliens and drug seizures, accounting for 
almost half of both categories across the entire border.
    This area has historically been one of the most popular drug 
smuggling corridors into our Nation, but in 1998 the floodgates opened 
as hundreds of thousands of illegal aliens began pouring across our 
Southern border. The wave peaked in 2000 when the Border Patrol 
reported approximately 620,000 apprehensions. Over time, Federal law 
enforcement assets began have been assigned to dealing with the problem 
and today, the apprehension totals are down to around 220,000 a year, 
while drug seizures are significantly higher. These numbers are the 
basis for what the Federal Government is statistical evidence that the 
border is ``more secure than ever.''

                                PROBLEM

    ``Ever'' is a very long time. There is little question that the 
Southern Arizona border is more secure in more places more often that 
it was 15 years ago. The building of physical barriers, improved 
technology, air support and a large increase in Federal agents have 
proved positive. Also, Federal programs such as Stonegarden and Secure 
Communities have helped develop important partnerships with State and 
local law enforcement agencies that bring important value to the 
effort. There are three primary reasons, however, in spite of all these 
efforts, the border is still far from being secure.
    First and foremost, by its own admission, the Department of 
Homeland Security still has not developed its own definition of what 
means to have a ``secure border.'' In fact, they are just now, after 
all these years, beginning the discussion. It is unlikely if not 
impossible that anyone can achieve success or know how to apply assets 
without a clear objective.
    Second, as long as I have been in this business, Federal 
strategists, policy makers, and planners have failed to include local 
officials and residents in the process. These are the people who know 
the environment, understand the challenges and can best provide 
meaningful input. Inviting them in on the back-end of discussion is a 
recipe for losing the battle and deep criticism in the face of certain 
failure.
    Third, The Department of Justice and Department of Homeland 
Security keep punting the border enforcement ball back and forth and 
the smugglers continue to win.

                        CONDITIONS ON THE GROUND

    In 1987 when local and State law enforcement officials came 
together to organize a joint narcotics enforcement task force, in 
Cochise County, there was no presence of the DEA, the FBI, there was 
maybe a total of 40 Border Patrol Agents and four Customs Office of 
Enforcement officers. Cocaine and marijuana were pouring across our 
border and we went out and put a hurt on the, collectively. Illegal 
immigration was just an afterthought. We seized thousands of pounds of 
cocaine, tens of thousands of pounds of marijuana and millions of 
dollars in cash and smuggler assets. Today, there are 1,300 Border 
Patrol agents, 30-plus ICE agents, a fully staffed office of the FBI 
and most recently a fully functional office of the BTAF in the county. 
All that, and we are still at the point of the spear for all the 
associated illegal border activity. With a 6,200-square-mile county and 
only 86 deputies, Border Patrol Agents are often our first responders, 
holding ground while my deputies respond from miles away for criminal 
activity not always associated with the border. We are extremely 
thankful for that. We interact daily with other Federal agencies in our 
common desire to bring the situation under control. But, to say our 
border is ``more secure than it has ever been'' and use the increase in 
resources to demonstrate that is simply disingenuous. Secure does not 
equate to safe, and I will tell you that the border region is more 
dangerous than it has ever been.
    Bottom line is, any one who wants to cross our Southern border can. 
And there are, statistically, some very bad people in the mix. The last 
number supplied by CBP was that 17% of the people they apprehend have 
previous criminal records in this country. In other words, caught, 
convicted, deported and coming back. Who knows how many have serious 
criminal records in their homelands but are migrating to communities 
everywhere U.S.A. No doubt, I.C.E. has recorded a record number of 
deportations of these criminal aliens the past 2 years, but you have to 
question the value of deportation if re-entry is still a viable and 
likely option.
    And why is the border region more dangerous than it has ever been? 
The nature of the enemy. Smugglers who used to run, now stand and 
fight. They have put on a very dire and deadly face and demonstrate 
their determination every day. Virtually every smuggling group we 
encounter, drug and human, is armed and prepared to protect their 
cargo. Assaults by the ordinary ``person just looking for work'' on 
agents is at an all-time high. Where people used to show up asking for 
food, shelter, or work, they now demand it with threatening postures. 
Citizens are regularly intimidated by these groups and told that if 
they don't help, then what they have will be taken from them.

                                  TBS

    Advances in technology, increases in the number of personnel, and 
equipment enhancements are limited in their effectiveness by strategic 
and tactical application . . . all of which is driven by ideology and 
policy. While law enforcement on our side of the border are constrained 
in many ways, the bad guys know no such boundaries and learn very 
quickly from our foibles. TBS, or Turn Back South under the old model 
was limited to working the line. If attempted crossings were deterred 
at the fence, then it was recorded as a Turn Back South effort. 
Deterrence is clearly the ultimate objective. Sadly, even at the fence 
in today's environment, it only means to the border crosser that they 
must come back and try another day, which they will, and after enough 
attempts, win the prize. It appears, according to numerous reports from 
current and former border agents, that this practice has gravitated 
many miles north of the border. That means that, regardless of 
proximity to the border, people who are detected but not caught are 
considered to be ``Turned Back South.''
    There is another place, at a different level where TBS is in 
effect. It is at the prosecutorial and judicial level. There are 
policies in place that establish thresholds for quantities of drugs and 
numbers of illegal aliens before consideration for prosecution can be 
entertained. In at least one Federal District in Texas, if you are 
caught smuggling less than 750 kilos of marijuana, you will not be 
subjected to prosecution. If you are caught smuggling fewer than 6 
illegal aliens, you will not be subject to prosecution. And if you are 
a lone illegal border crosser, you get at least seven chances before 
you are even charged with a misdemeanor. And after that, you get seven 
more chances before you are eligible for prosecution of a second 
offense felony. TBS occurs at many levels and is quickly assimilated 
into the understanding of the bad guys on how to game the system. Oh, 
and in Arizona, if you are a juvenile caught smuggling drugs, you won't 
be prosecuted at all in the Federal courts. All this then levies heavy 
pressure on the local criminal justice system to take up the slack, 
with no hope of remuneration.

                              PARTNERSHIPS

    Since Sept. 11, 2001 and the establishment of the Department of 
Homeland Security, they have been on an aggressive outreach effort to 
State and local law enforcement and emergency responders to help in 
securing our homeland. I have participated in many of the meetings 
designed to promote this idea. The language has been clear. The 
promoted concept is to ``empower and partner with'' State and local 
agencies. A noble concept and long awaited. And, the idea is beginning 
to come to fruition, but as is the idea that our border is secure, 
there is still a long way to go. There are still many barriers to break 
down, not the most notable as those between the various Federal 
agencies themselves.
    I mentioned earlier that DHS and DOJ are punting the ball back and 
forth. On the one hand, DHS announces that no one will cross the border 
without consequences. Then DOJ sets up intake and sentencing guidelines 
that totally contravene that policy. They must get on the same page, 
but unfortunately current policy and practice from neither organization 
will provide the avenue to do this. And as all of us, Federal, State, 
local, citizens, sit down here on the border day and night fighting 
this fight, we hear our President announce a de facto sanctuary policy 
for all but ``criminal aliens.''

                           WHERE WE ARE TODAY

    The Federal Government, following the passing in Arizona of Senate 
Bill 1070 claims that it has sole jurisdiction over immigration law. 
This position is curious inasmuch as all Federal agencies partner with 
and reach out to State and local law enforcement agencies to support 
and participate in enforcement of drug smuggling, gun running, money 
laundering, sex trade, and a myriad of other border-related crime. And 
then when a State steps up to protect itself from the Federal 
Government's failure to control our border, we get sued by the 
Department of Justice. In the mean time, law enforcement officers--CBP 
agents, State Dept. of Public Safety Investigators, Sheriff's Deputies, 
City Police Officers and our own citizens are paying a heavy price 
every day fighting the fight of our lives to protect our homeland. It 
is simply not right that we should be down here waging this battle 
while some communities and even our own Federal Government are 
participating in sanctuary policies.
    Just over a year ago, as Department of Homeland Security Officials 
were declaring they had secured operational control of most of the 
Southern Arizona border, my friend Rob Krentz was senselessly murdered 
on his ranch. Another elderly couple were tied up in their home, their 
possessions stolen, loaded into their own car and driven off. CBP Agent 
Brian Terry was gunned down by border bandits. And just within the past 
2 weeks a local resident who reportedly was trying to get out of the 
smuggling business was abducted from his home and hasn't been seen 
since. These travesties are being committed in communities throughout 
our Nation every day, committed by individuals, groups, and gangs--
people who should never been allowed to enter or remain in our country.
    This battle is not just for the border. It is for every community 
and every legal resident of this country to assure that they may 
continue to live peaceably with a quality of life that they have worked 
for their entire lives. When that quality of life is restored to our 
border communities, those who live here will be the first to stand up 
and tell you, it is done. Success will require the full force and 
attention of a cooperative local, State, and Federal effort. That will 
require comprehensive immigration enforcement. Thank you very much.

    Mrs. Miller. Thank you very much, Sheriff Dever.
    The Chairwoman would now recognize Sheriff Entrekin for his 
comments and statement.

  STATEMENT OF TODD ENTREKIN, ETOWAH COUNTY SHERIFF'S OFFICE, 
                            ALABAMA

    Sheriff Entrekin. Thank you. Good morning, Chairwoman 
Miller and Members of the committee. I am Todd Entrekin, and I 
currently serve as sheriff of Etowah County, Alabama. I am very 
glad to appear before you today to discuss the ever-present 
issues of immigration in the United States.
    My agency partnership with the Immigration and Customs 
Enforcement began in 1998. The agency was then known as 
Immigration and Naturalization Service. We worked alongside 
them to house detainees in their custody. Our positive working 
relationship has expanded since that time. During the months of 
the terrorist attacks on the United States in September 2001, 
our facility was utilized to temporarily house subjects who 
were later described as co-conspirators in the terrorist 
attacks.
    In addition to housing detainees, my office has and 
continues to participate in both transportation of detainees as 
well as enforcement of immigration law through the Delegation 
of Authority Program. Through the Delegation of Authority, 
commonly known as 287(g) program, we have been able to assist 
ICE with enforcement of immigration laws within our 
jurisdiction.
    As a result of our partnership over the last decade and a 
half, I have seen first-hand the importance and the benefit of 
the Federal, local, and State relationships. Through my 
experience with DHS and detention, immigration enforcement, and 
287(g), and, more recently, Secure Communities, I know that 
much value is added for both the local government and the 
Federal Government. These types of intergovernmental service 
agreements promote efficiencies, cost-effectiveness, and simply 
place more boots on the ground, where it matters the most.
    Though the Federal Government's resources are vast, 
unfortunately we all know that there are limitations. With 
these limitations come frustrations, and we see it clearly in 
the States through various immigration legislation proposals. 
Based on my experience, the most advanced, effective strategy 
to combat some of the immigration frustrations for the local, 
State, and Federal governments would be to maximize our 
resources and experience already available.
    To capitalize on the potential, it would be beneficial for 
ICE to offer some financial reimbursement or incentive to local 
agencies that are required to supply staff and overtime for the 
implementation of the 287(g) program. Budget allocation and 
staffing at the local level become very sensitive in 
prioritizing staff needs. Therefore, for many, this issue 
singly prevents local agencies from using 287(g) to the 
fullest.
    To continue to maximize the opportunities to the fullest, 
together we must strive to enhance our operations through 
innovative methods of funding. As I understand it, if a 
subject's fingerprints are not on file in the Secure 
Communities, if they are not on file in some of the databases, 
it is not effective.
    We are lucky in Etowah County to have just come on-line 
with the Secure Communities initiative that became live last 
week. We were able to do this because we have the Live Scan 
equipment in our county already in place. We are one of the few 
in Etowah County--I mean in all of Alabama that have this. You 
know, and that is due to lack of funding that these small 
counties have. If there was any way that we could come up with 
some funding to help these counties out to come up on-line with 
this, with the equipment to do Secure Communities, would make 
this work. Methods of grant funding should be considered which 
would expedite information being entered into this system to 
make it the best it can be.
    Simply, without healthy partnerships between the Federal, 
State, and local governments, DHS cannot accomplish this 
mission as effectively as it does through IGSAs. Further, local 
governments would not have the opportunity to be better trained 
and equipped by being involved in the bigger picture of 
securing our homeland. We are pleased to work alongside the men 
and women of DHS to accomplish what none can alone.
    Ms. Chairwoman and committee Members, again, thank you for 
this opportunity to sit before you today. I appreciate your 
time and service to the Nation.
    I would now be pleased to discuss any questions you have 
with me. Thank you.
    [The statement of Sheriff Entrekin follows:]

              Prepared Statement of Sheriff Todd Entrekin
                              May 3, 2011

    Good morning Chairwoman Miller and Members of the committee. I am 
Todd Entrekin and I currently serve as Sheriff of Etowah County, 
Alabama. I am very glad to appear before you today to discuss the ever-
present issues of immigration in the United States. I am honored to 
represent the citizens of Etowah County, the State of Alabama, 
Sheriff's and local law enforcement from across the United States 
before you today.
    In 1998, my agency partnered with then, the Immigrations and 
Naturalization Service (INS), to house some illegal detainees in their 
custody. In 2003, INS further affirmed their commitment to partner with 
Etowah County as they funded an $8 million expansion to the Etowah 
County Detention Center, so that we could better serve the needs of the 
INS. During the months after the terrorist attacks on the United States 
in September 2001, our facility was utilized to temporarily house 
subjects who were later described as co-conspirators in the terrorist 
attacks.
    Through the creation of the Department of Homeland Security (DHS) 
and the formation of the Immigration Customs and Enforcement (ICE) 
Agency, the Etowah County Sheriff's Office has continued in partnership 
to assist ICE's primary mission, in promoting homeland security and 
public safety through the criminal and civil enforcement of laws of the 
United States. To this end, the Etowah County Sheriff's Office has 
directly served both the Atlanta Field Office and the New Orleans Field 
Office of ICE.
    In addition to housing detainees, my office has and continues to 
participate in both the transportation of detainees as well as 
enforcement of immigration laws through the delegation of authority 
program. Transportation of detainees has included moving detainees 
throughout primarily the Southeastern United States from State prison 
custody or Bureau of Prison (BOP) custody and transporting them to ICE 
custody.
    Through the delegation of authority, commonly known as the 287(g) 
program, we have been able to assist ICE with enforcement of 
immigration laws within our jurisdiction. When individuals are arrested 
on local or State charges, 287(g) certified deputies review their 
citizenship or immigration status. Those who appear to be in violation 
of immigration laws, are then referred directly to ICE personnel for 
further review and processing.
    As a result of each of these partnerships over the last decade-and-
a-half, I have seen first-hand the importance and the benefit of the 
DHS and local-State relationships. Through my experience with DHS in 
detention, immigration enforcement, 287(g), and more recently, Secure 
Communities, I know that much value is added for both the local 
government and the Federal Governement.
    These types of inter-governmental service agreements (IGSA) promote 
efficiency, cost-effectiveness, and simply place more boots on the 
ground where it matters most. This arrangement allows DHS to accomplish 
more of their mission with less financial demand compared to staffing 
all the needed resources at the Federal level. Very importantly today, 
this then allows the local government to enjoy the ability to stimulate 
their economy through the creation of additional employment and 
financial investment into local resources and the community.
    Due to the authority and resources of DHS, they are the experts on 
immigration and related issues. Though the Federal Government's 
resources are vast, unfortunately, we all know there are limitations. 
With these limitations, come frustrations that are seen clearly in the 
States through various immigration legislation proposals. These laws 
have raised many questions concerning the States' role of immigration 
and the Constitutionality of those actions. Immigration has become a 
hot topic in Alabama over the last several months. Recent Alabama House 
of Representatives Bill 56 (HB56) and a similar Senate Bill, appear to 
be based on the law passed in Arizona. This legislation basically would 
make it a crime of trespassing if someone is not a U.S. Citizen and is 
in the State illegally. Under the current wording of the bill, law 
enforcement officers will be required to enforce the law or face 
penalties.
    If this type of legislation is enacted, I feel sure we'll have to 
put out a ``no vacancy'' sign at our detention center as well as others 
throughout the State. This type of activity would not only burden local 
law enforcement in a negative fashion, it would burden other social 
services as well. For instance, if a mother and father are arrested and 
they have several small children at home, it will put more stress on 
the Department of Human Resources. Other similar effects that may be 
less obvious to States will be experienced as well. With the 
implementation at the State level demanding the Federal Government to 
react, further complications will arise. As an example, the manpower 
limitations and transportation restrictions on ICE staff will prove 
difficult as a result of the process requiring some time until the 
arrestee is determined to be in the country illegally and then can be 
transferred to the custody of ICE.
    Based on my experience, the most effective strategy to calm some of 
the immigration frustrations for the local, State, and Federal 
governments would be to maximize the resources and expertise already 
available. Further, greater dividends would be noticeable through the 
enhancement and development of further partnerships between DHS and 
local law enforcement agencies. From a local perspective, our law 
enforcement officers serve as the first line of defense. These IGSA 
arrangements equip more boots on the ground, serving as a force 
multiplier for DHS.
    To capitalize on this potential, it would be beneficial for ICE to 
offer some financial reimbursement or incentive to the local agency 
that is required to supply staff, overtime, and resources to implement 
programs like 287(g). Budget allocation and staffing at the local level 
become very sensitive in prioritizing staffing needs, therefore, for 
many, this single issue prevents many local agencies from using 287(g) 
to the fullest.
    To continue to maximize these opportunities to the fullest, 
together, we must continually strive to enhance our operations through 
inovative methods and funding initiatives. The new safety net to the 
287(g) programs, Secure Communities, is only as effective as the 
information it is provided. As I understand it, if a subject's 
fingerprints are not in one of several queried databases, it is 
ineffective. Often, this is due to a backlog of paper prints that need 
to be uploaded so that all possible data can be accessed.
    Just last week, the Secure Communities Initiative became active in 
my county. Due to my agency's existing partnership with ICE, we have 
Live Scan equipment in place and were easily able to go live. However, 
I understand that we are the minority in Alabama and other surrounding 
States, having the equipment in place and readily operational. Many 
local sheriff's offices are small and underfunded. This lack of funding 
keeps many of them from the ability to purchase the needed equipment to 
support Secure Communities.
    Methods of grant funding should be considered which would expedite 
information being entered into the system to make it the best it can 
be. During a time when local and State budgets are being cut sharply, 
Federal funding is essential to cultivate and produce strong 
immigration results from local and State law enforcement. Through the 
Federal Emergency Management Agency's (FEMA) administration of 
Operation Stone Garden, border States are supported in their local 
efforts to serve as a tool to equip additional manpwer at the local 
level to assist in immigration enforcement. While this is an excellent 
strategy for border States, similar initiatives should be funded and 
implemented for other States that face immigration issues that equally 
can impact all aspects of life for our citizens.
    Simply, without healthy relationships between Federal, State, and 
local governments, DHS could not accomplish its mission as effectively 
as it does through IGSA's. Further, local governments would not have 
the opportunity to be better trained and equipped by being involved in 
the bigger picture of securing our homeland. We are pleased to work 
alongside the men and women of DHS to accomplish what none can alone.
    Ms. Chairwoman, and committee Members, again, thank you for the 
opportunity to sit before you today. I appreciate your time and service 
to our Nation. At this time, I would be glad to continue to maximize 
these opportunities to the fullest. Together, we must continually 
strive to ehance our operations through inovative methods and funding 
initiatives. I will now be pleased to discuss any questions you may 
have.

    Mrs. Miller. Thanks very much, Sheriff.
    At this time, the Chairwoman now recognizes Mr. Lopez for 
his opening statement.

  STATEMENT OF GOMECINDO LOPEZ, COMMANDER, SPECIAL OPERATIONS 
         BUREAU, EL PASO COUNTY SHERIFF'S OFFICE, TEXAS

    Mr. Lopez. Thank you. Good morning, Chairman Miller, 
Ranking Member Cuellar, Ranking Member Thompson, Members of the 
subcommittee. It is indeed a privilege and an honor to be here 
before you today to discuss the partnerships and working 
relationships of local and State law enforcement with our 
Federal counterparts.
    As you know, I am here on behalf of Sheriff Richard Wiles, 
who regrettably could not be here, and he sends his apologies.
    I have been with the sheriff's office 26 years now, and I 
have worked my way up from street level, starting off at the 
detention center, and working my way up through my current 
position as a commander. In those 26 years, I know that our 
cooperation with State, local, and Federal agencies has been 
crucial, especially there in El Paso.
    While El Paso is a relatively large city--we have around 
800,000 population. Then when you bring in to mind our sister 
city of Juarez, Mexico, we have a population of about 2.3 
million. So it is pretty big. But it is also very isolated; we 
are far west Texas. So, when anything, you know, major happens, 
we really have to rely on each other there, both at the State 
and local and Federal level. Because our closest major city is 
maybe Dallas or Albuquerque, and those are hundreds of miles 
away, so we have to rely on each other.
    I am sure you all have heard of the violence, the on-going 
violence in Juarez. In 2010, there were close to 3,100 
homicides in Juarez. That continues this year with the same 
type of fighting. Of course, this is because two drug cartels 
are fighting for control of a very lucrative drug corridor. El 
Paso is one of the biggest drug corridors for drugs flowing 
north up into the District of Columbia, Atlanta, and all other 
points north. But it is also a corridor for cash and weapons 
flowing south. So that is another thing that a lot of people 
don't realize.
    The Mexican federal government should be applauded for its 
fight against the drug trade and the drug cartels specifically, 
but it lacks the criminal justice infrastructure and expertise 
to properly investigate, arrest, and prosecute criminal 
offenders. Rampant corruption is another complicating factor in 
Juarez.
    Now, in El Paso, it is a totally different story. We are 
the safest city in America, according to a CQ Press poll. We 
consistently have been ranked second- and third-safest city in 
America for the past, I would say, about 12 years now. One of 
the reasons for that, as Mr. Thompson mentioned, is our 
community policing. The El Paso Police Department and the 
sheriff's office, we believe in and have implemented the 
philosophy of community policing.
    But, as far as spillover goes, we have had a couple of 
high-profile cases involving some kidnappings of some of our 
citizens that are taken across to Juarez, killed, dismembered. 
But through cooperation with our Federal agencies, specifically 
the FBI, in both of these instances, arrests have been made and 
convictions have been returned. So that is very awesome for us.
    One of the things that Sheriff Wiles does not support is 
that the State--or that the local law enforcement agencies be 
tasked to enforce immigration issues. There are four reasons, 
and I will go through it as quickly as I can.
    No. 1, local and county law enforcement do not have the 
resources to take on additional responsibilities. We belong in 
the neighborhoods of our communities, providing crime 
prevention services and maintaining order. Our officers, for 
example, should not be pulled out of the neighborhoods to 
handle a Federal responsibility.
    No. 2, Federal immigration law is complex and contains both 
criminal and civil penalties. Mistakes are made by those who 
are experts in this venue, and for us to take on that 
responsibility would be a burden.
    Last, most importantly, this ill-advised policy will 
undermine the trust and cooperation of our immigrant 
communities. El Paso is approximately 80 percent Hispanic. To 
undermine that trust, it would be a very critical mistake. I 
think that is the major difference between Juarez and El Paso, 
in that, you know, Juarez, they don't trust the authorities at 
all. They don't know who to trust. In El Paso, we have 
established that trust.
    Thank you very much.
    [The statement of Mr. Lopez follows:]

               Prepared Statement of Richard David Wiles
                              May 3, 2011

    Chairman Miller, Ranking Member Cuellar, Members of the 
subcommittee, it is a privilege and an honor to appear before you today 
to discuss the partnerships and working relationships of local and 
State law enforcement with our Federal counterparts.
    Prior to being elected El Paso County Sheriff in 2008, I worked 
with the El Paso Police Department starting as a patrol officer in 1982 
and ultimately retiring as the Chief of Police in 2007. As a result, I 
have had the opportunity to work with various Federal agencies as I 
moved up the ranks.
    El Paso is a unique and very diverse city in far west Texas. In the 
2010 census, the city had a population of approximately 650,000. It is 
the sixth-largest city in Texas and the 19th-largest city in the United 
States. El Paso County covers an area of more than 1,000 square miles 
and has a total population of approximately 800,000.
    El Paso stands on the Rio Grande, across the border from Ciudad 
Juarez, Chihuahua, Mexico and is spanned by several international 
bridges from the western county line to the eastern. The two cities 
form a combined international metropolitan area, sometimes called 
Juarez-El Paso, with Juarez being the significantly larger of the two 
in population. They have a combined population of 2.3 million, with 
Juarez accounting for two-thirds of the population. In 2010 El Paso was 
awarded All-America City. This prestigious award is the oldest 
community recognition program in the Nation.
    El Paso is home to the University of Texas at El Paso and the Texas 
Tech University Health Sciences Center at El Paso. Fort Bliss, one of 
the largest military complexes of the United States Army, lies to the 
east and northeast of the city, with training areas extending north 
into New Mexico, up to the White Sands Missile Range and neighboring 
Holloman Air Force Base in Alamogordo, New Mexico.
    I am sure you have heard of the current epidemic of extreme 
violence currently taking place in Juarez. In 2010, Juarez had close to 
3,100 homicides. This is a direct result of two drug cartels fighting 
for control of a very lucrative drug corridor as well as street crime 
taking over in a city where lawlessness prevails essentially to the 
point of anarchy. It is well-known that while illegal drugs flow North, 
money and weapons flow South. While the Mexican federal government 
should be applauded for its fight against the drug trade and drug 
cartels specifically, it lacks the criminal justice infrastructure and 
expertise to properly investigate, arrest, prosecute, and incarcerate 
criminal offenders. Rampant corruption is another complicating factor 
in the desultory picture.
    Because of the violence, our communities have lost the bi-national 
cultural experience that we once took for granted. Most El Paso 
citizens and tourists will not venture into Juarez because of the 
violence and dangerous conditions that exist. However, El Paso and 
Juarez have many family and business connections and as a result, there 
are still some willing to travel to Juarez. In some cases, this has 
been met with tragic results. But even so, legal trade and commerce 
continue with tens of thousands of vehicles and persons crossing 
through the ports of entry every day.
    El Paso has a different story to tell. A city of law-abiding 
citizens who work hard every day to support their families and make 
their community a better place to live, work, and play. Citizens trust 
and respect a Police Department and Sheriff's Office that are CALEA-
accredited and which believe in and have implemented the philosophy of 
Community Policing. Additionally, because we are a large city on a 
border with multiple international bridges, we are home to many other 
law enforcement agencies from the Federal and State governments.
    While issues do arise from time-to-time, I would say the working 
relationship between Federal, State, county, and local law enforcement 
agencies in El Paso is outstanding and unmatched in other 
jurisdictions. There is a recognition that by working together 
ultimately we compliment each other and the community as a whole. This 
is something that I routinely hear from agency leaders during regular 
meetings where we share information and work together on operational 
strategies.
    This cooperative atmosphere is certainly one of the reasons that El 
Paso has been recognized as the safest large city (over 500,000 
population) by CQ Press which produces the Annual Safest City Award. 
Prior to this recognition, El Paso has been named either the 2nd or 3rd 
safest large city for the last 12 years. This is quite an 
accomplishment given the current situation in Juarez.
    One frequent question that I am asked is about ``spill-over'' from 
Juarez. Certainly this has occurred. While it can have different 
meanings to different people, I consider ``spill-over'' to include the 
drug and human trafficking, and crimes along the border that are 
endemic to border communities. Of course, we deal with the ``spill-
over'' of violence on occasion. There have been two recent high-profile 
cases involving this violence.
    In one case, a cartel member turned ICE informant was gunned down 
in front of his house in East El Paso. The El Paso Police, along with 
Federal agencies including the FBI solved that case and made arrests of 
the individuals responsible who turned out to be U.S. citizens.
    In another case, a cartel member living in Horizon City (another 
incorporated city in El Paso County) was kidnapped by armed gunmen from 
his home in broad daylight. This took place in front of his family as 
well as other citizens to include school children in a bus that was 
driving by at the time. This cartel member was later found dead and 
dismembered in Juarez a few days later. Again, the El Paso County 
Sheriff's Office, along with Federal agencies solved this case and 
arrested the individuals responsible. They were recently tried in 
Federal court and convicted.
    There are certainly other cases, but clearly the violence that does 
occur in El Paso is nowhere nearly comparable to the violence occurring 
in our neighbor to the South. There are many reasons for this, 
including the staffing increases in the Border Patrol, ICE, ATF, and 
others which have clearly had a positive impact on preventing ``spill-
over'' violence as well as maintaining a sense of security in our 
community.
    I have purposely stayed away from immigration issues until now as I 
wanted a clear distinction between criminal issues that fall within the 
jurisdiction of local and county law enforcement and immigration 
issues, often civil in nature, that are the sole responsibility of the 
Federal Government.
    Leaders of the U.S. Border Patrol will tell you the vast majority 
of undocumented immigrants who come to the United States do so for 
economic reasons. It is clearly understood the Federal Government is 
responsible for securing our international borders and dealing with 
issues of illegal immigration. Recent statistics from Homeland Security 
show that Border Patrol apprehensions--a key indicator of illegal 
immigration--have decreased 36 percent in the past 2 years, and are 
less than half of what they were at their peak.
    Prior to the increase in staffing for the Border Patrol, there were 
calls by some in Congress to have local and county law enforcement 
officers engage in Federal immigration enforcement. Not only is it not 
needed at this point, but it is bad policy for the following reasons:
    1. Local and county law enforcement do not have the resources to 
        take on additional responsibilities. They belong in the 
        neighborhoods of our communities providing crime prevention 
        services and maintaining order. My officers, for example, 
        should not be pulled out of neighborhoods to handle a Federal 
        responsibility. Additionally, recent reports indicate while 
        local and county law enforcement agencies have to cut back on 
        staffing and equipment (due to loss of both local revenue and 
        access to Federal and State grants); Federal agencies have 
        actually maintained staffing levels or seen increases.
    2. Federal immigration law is complex and contains both criminal 
        and civil penalties. Mistakes are made by those whose sole job 
        is immigration enforcement. Local and county law enforcement 
        have enough statutes, codes, case law, etc. to learn and apply 
        and should not be expected to become experts in immigration 
        enforcement.
    3. If a local or county officer does enforce immigration law and 
        then makes a mistake, who is going to represent the officer in 
        court and who is responsible to pay any settlements or 
        judgments? The local taxpayer should not be burdened with this 
        added expense or, in other words pay for it twice, in local and 
        Federal taxes.
    4. Lastly and most importantly, this ill-advised policy will 
        undermine the trust and cooperation of immigrant communities. 
        People may be afraid to report crime as a victim or a witness 
        if they fear police will ask them to prove their citizenship. 
        Criminals have been known to prey on undocumented immigrants 
        for this very reason. Also, problematic is officers stopping 
        people to ask proof of immigration status. The safety and 
        security of everyone in the city/county is clearly the main 
        responsibility of local and county law enforcement. This 
        responsibility can and must be discharged without engaging in 
        racial profiling which, by its very nature, is illegally 
        invasive of personal liberties.
    It is unquestionable that Federal, State, county, and local law 
enforcement must work together and collaborate to make our communities 
safe. El Paso is a good example of this collaboration and cooperation 
resulting in a success achieved by few other large cities.
    Where the issue is solely the responsibility of one level of 
government, those agents are responsible for carrying out their duties. 
For example, the security of our Nation's borders and the resulting 
immigration issues are the responsibility of the Federal Government and 
this responsibility is shared by everyone in our Nation, not just by 
taxpayers that happen to live along the border. Traffic enforcement, on 
the other hand, is the responsibility of local and county government 
and as such, is handled by local and county law enforcement. Would we 
expect Federal agents to enforce local speed limits?
    However, where the issues overlap jurisdictions, such as drugs, 
human trafficking and smuggling, and certain criminal offenses, we must 
and do work together. The El Paso County Sheriff's Office is part of 
the Southwest High Intensity Drug Trafficking Areas (HIDTA) 
organization. We work with the U.S. Border Patrol on Stonegarden 
operations. We assist ICE by fingerprinting and identifying bodies from 
the Juarez violence in order to gain intelligence. I signed onto the 
Secure Communities Program when I took office in 2009. And, because of 
the isolated areas of El Paso County in which back-up is few and far 
between for Federal and county officials working in these areas, we 
assist each other on calls to provide for officer safety.
    Homeland Security is doing an excellent job in El Paso. When issues 
do arise, they are settled quickly. My concern is for the long-term 
future of our border communities. I have yet to hear the vision of 
Congress in regard to immigration and immigration enforcement. We can 
only build so many fences and pour so much money into hiring Federal 
agents to place along the border. Even the Federal grants that we 
receive are typically short-term and only provide for limited equipment 
and overtime. Communities like El Paso need to understand the long-term 
goals and objectives of our Federal Government so that we can prepare 
and assist. I do not believe current enforcement efforts are 
sustainable given our economic realities. It is my considered opinion 
comprehensive immigration reform with a shared vision of local 
communities along the border is indispensible to ensure the prosperity 
of our country.

    Mrs. Miller. Thank you very much, Mr. Lopez, and to all the 
witnesses as well.
    You know, one of the reasons we wanted to have this hearing 
was, of course, to think about how we can cooperate better with 
the Department of Homeland Security, the various Federal 
agencies, as well as all of the locals. So I think the 
testimony from the sheriffs was all excellent, as well.
    I guess my question would be for Mr. Vitiello, I think. One 
of the things that has happened in my particular district is 
this Operational Integration Center, which we recently opened, 
which is a pilot for the Northern border but could certainly be 
utilized at the Southern border, as well. I know with all the 
fusion centers, et cetera, that we have around the country, I 
am just wondering about your comments on how those kinds of 
things would work.
    It was interesting for us, when we opened this, the OIC, 
you walk into the room, and you have these large screens that 
are being fed with intel and data from all of the affected 
stakeholders. So, in that case, it is CBP and the Coast Guard, 
our Canadian counterparts, and our local law enforcement as 
well. So our local sheriffs, our local emergency management 
directors are coming in and out of there, whether it is at the 
county level or even some of the city police, et cetera.
    I thought it was just a fantastic way to coordinate all of 
the various stakeholders. You know, of course, at the end of 
analyzing all of this data, you hopefully finally have a work 
product that can be put out into the hands of the Border Patrol 
agents that are out 
24/7, something that can really help them identify threats, et 
cetera, et cetera.
    Of course, the GAO reports that have come out about 
operational control on both borders have indicated that--and 
this was really something that came from the 9/11 Commission 
recommendation, as well, is how we have to move out of these 
silos that we sometimes get into and move from the need to know 
to the need to share--the need to share information from the 
Feds, the States, the local, et cetera. We all have a common 
constituency and a common goal, in this case, of securing the 
border.
    I am just wondering what your thoughts are on these 
operational integration centers--I know there is just that one, 
but others that might happen in the future--and the fusion 
centers, and some of those kinds of things.
    Mr. Vitiello. Thank you, Chairwoman.
    The Operational Integration Center is a perfect place. It 
gives us a format to share the information and put everyone on 
the same foundation of what we call a common operating picture. 
So, in its best format, we have the technology that allows us 
to do surveillance at the border and transfer that information 
to the relevant stakeholders, whether it be the Coast Guard, 
ourselves, the State and locals.
    So there is room within the center for participation across 
the whole of Government. It also gives us the ability to not 
only recognize in real-time what the operational conditions 
are, but also gives us a common intelligence picture and an 
ability to share in real-time side-by-side with the 
stakeholders. So we look forward to its implementation and the 
best practices that will come out of it.
    Then the Department has also invested in fusion centers 
throughout the country that provide this similar kind of 
format. Then you will recognize from your visits to the border 
that each of the sectors have the ability to do that with 
ourselves, with ICE, with the State and locals, to understand 
what the local lookouts, if you will, are and pass that 
information amongst ourselves at the Federal level, as well as 
within the State and local format.
    Mrs. Miller. Mr. Kibble, I would like to ask you a little 
bit about the Secure Communities. I mentioned in my opening 
comments that one of my counties, St. Clair County, actually 
just about 2 weeks ago came on-line with the Secure 
Communities. But Sheriff Entrekin was mentioning you also 
recently came on-line. It seems as though--my sheriff was 
ecstatic about this, and it even sounded like you were very 
enthusiastic as well.
    Perhaps you could flesh out a bit how that program is 
working. When you get that kind of buy-in, I think, 
enthusiastic response from local sheriffs and local communities 
about a program that, as I understand it, you know, you are 
analyzing the fingerprints to see what is what, and the costs 
associated. How do you see that program unfolding as we go 
forward?
    Mr. Kibble. Chairman Miller, we see that as a central part 
of our success in increasingly removing criminal aliens that 
present public safety concerns to the community.
    You know, last fiscal year, out of roughly 392,000 
removals--we are resourced to do roughly that--half of those 
were criminal aliens. A lot of that is due to the expansion of 
our deployments to Secure Communities to additional 
jurisdictions throughout the community.
    I think the beauty of Secure Communities is that, at its 
heart, it is a Federal, biometric information-sharing 
initiative mandated by Congress and in line with the 9/11 
recommendations. So that when we partner with State and local 
jurisdiction throughout the country, we are not asking them to 
do anything differently. They will make the arrests under their 
normal authorities. As they book and submit those fingerprints 
to the FBI, it is the FBI IAFIS system that shares those 
biometrics with DHS so that we can see if there have been any 
previous immigration encounters. Then the State or local 
jurisdiction can choose as to whether they want to receive that 
response, but certainly it will come to ICE so that we can take 
appropriate action.
    So I think that is the advantage of it, is that it helps us 
to identify the criminal aliens that are being arrested for any 
number of local violations, without asking State and locals to 
do anything differently, but then to be able to get that 
information so that we can take action.
    We are up to about 72,000 criminal aliens arrested under 
the Secure Communities program, so it is very effective. We see 
that as really the future in terms of the most efficient way to 
move forward.
    Mrs. Miller. Thank you very much.
    My time is expired. Before I recognize Ranking Member 
Cuellar for his comments, I am going to turn the chair over to 
Mr. Rogers, because my great State of Michigan, in about 10 
minutes, is going to be unveiling in Statuary Hall a statue of 
our 38th President, Gerald Ford. Our Governor is in town, and 
it is a must-be-there for me.
    So I appreciate very much all of the witnesses being here 
today. I will turn it over to Mr. Rogers.
    Mr. Rogers [presiding]. The Ranking Member, my good friend, 
Mr. Cuellar, is recognized for 5 minutes.
    Mr. Cuellar. Thank you very, Mr. Chairman.
    I have a question to both ICE and Border Patrol. I am 
trying to figure out what the official policy is of the United 
States of America when, at your checkpoints, if you catch 
somebody--my understanding is now in the Southern district of 
Texas, if you catch somebody with 220 pounds or less, let's 
say, of marijuana, then if the local folks don't take those 
cases, then that person is going to be released. Is that 
correct?
    Mr. Vitiello. I am not specifically aware of Laredo's 
threshold scenario with the U.S. Attorney's office, but I can 
assure you that what we do there and what we expect the sectors 
to do across the Nation is to refer these cases, right? So, in 
the Border Patrol's policy, we have a memorandum of 
understanding with DEA. So, when an agent encounters a load of 
whatever size, the first call they make is to the 
investigations group at DEA, who will do the Federal response 
first. Then, through their arrangements with the U.S. 
Attorney's office, then they will decide on a disposition. In 
lots of cases it will go to the State or sometimes the local 
authorities.
    Mr. Cuellar. Okay. Give me your understanding of what the 
threshold is throughout Arizona, New Mexico, Texas. I know you 
can say that it is somebody else or the U.S. Attorney, but I 
know you do have an understanding. My question is, what is the 
policy of the United States of America when it comes to 
somebody who is being caught with drugs at a checkpoint?
    Mr. Vitiello. The response by Border Patrol for checkpoints 
or any encounter of narcotics, our first call is to the 
investigative agency. So, DEA, with our memorandum of 
understanding, is the first call that Border Patrol will make.
    Mr. Cuellar. Okay. Let me ask again--you are not answering 
my question. What is the threshold, from your understanding?
    Mr. Vitiello. What you are talking about is policies that 
are locally based at each U.S. Attorney's office. So I am not 
familiar across the board what it is in San Diego all the way 
to Brownsville.
    Mr. Cuellar. Do you have an understanding of what the 
policy is anywhere?
    Mr. Vitiello. I understand that, within the MOU, we refer 
the cases to DEA.
    Mr. Cuellar. I don't want to know that. I want to know what 
the policy of the United States of America is when a drug 
dealer or a mule is caught with drugs at a checkpoint. My 
understanding is, in the Southern part of Texas, Southern 
district of Texas--and I think the last time committee staff 
was in Arizona they said the threshold was 500 pounds. I 
thought 220 pounds was a lot.
    What is your understanding of that threshold without giving 
me memorandums? I understand there is a memorandum. You, as a 
deputy chief, have to understand what that threshold is.
    Mr. Vitiello. I am going to do my best here. What we do is 
call the DEA. The distribution for the prosecution that follows 
on is a decision that is made between DEA and the local 
prosecutor. Sometimes--when I was in Laredo, the threshold--
what we used to call the threshold, in working terms, was 150 
pounds. So we knew when we called DEA they were not likely to 
take a prosecution case above 150 pounds.
    Now, that changes based on local conditions, based on the 
resources that are available within the departments. But what 
we expect the Border Patrol to do and what CBP's policy is is 
to call DEA. The disposition of those cases is based on the 
local resources that are available, both at the U.S. Attorney's 
office and the local departments.
    Mr. Cuellar. Okay. My understanding is that if, in the 
Southern district of Texas, which covers part of McCaul's area 
also, is that if somebody is caught with 220 pounds of 
marijuana, for example, and the local folks don't want to take 
that case--and I know because I have a brother who is a 
sheriff--by the way, I am a little biased to my three witnesses 
here--the local sheriff doesn't want to take it or the local 
district attorney doesn't want to take them, then basically 
that person walks.
    So instead of somebody coming in--when the bad guys find 
out and they are listening to this, they are going to say, 
``You know what? Don't go with 220 pounds. Go with 215 pounds. 
Because you know what is going to happen in that area? They are 
going to let you go if you go under 200 pounds.''
    Is that the policy of the United States of America when it 
comes to drug dealers?
    Mr. Vitiello. It is not the policy. What the local 
conditions are, or whatever the limitations are, are worked 
through the relationships that exist.
    Mr. Cuellar. But the local conditions dictate what the 
policy is, correct?
    Mr. Vitiello. No. The policy is dictated by the agreements 
that we have. If the local conditions don't allow for a 
prosecution--and I don't know the specifics in Laredo. I think 
between Webb County and the sector I am sure that there is some 
discussion going on about where the disposition of those cases 
fall.
    Mr. Cuellar. My time has expired. I would just ask you from 
your understanding of what the Southern district policy is--and 
I understand memorandums. You can reference any--all of the 
memorandums you want to, but I want to know what those 
memorandums add up to the policy is.
    I want to know if a drug dealer goes into the Southern 
district of Texas, which is from Laredo to Brownsville up to 
the Houston area, if they are caught there with 220 pounds, the 
bad guys are not going to say, you know what? Just go in with 
215 pounds. Because if the local guys don't pick that up and 
there is cooperation with those, they are going to walk free, 
and they are just going to get a slap. If the local D.A. 
doesn't prosecute them or the local sheriff doesn't get 
involved, they are going to walk out. They are going to walk 
away with nothing on that.
    Again, I say this because we just want to help you to see 
what we need to do. You might want to ask about Arizona. My 
understanding from the staff is when they went down last time I 
believe the threshold was 500 pounds, which is--I thought 220 
pounds was pretty bad. But, anyway, it is just a concern that I 
have.
    Thank you, Mr. Chairman.
    Mr. Rogers. The Chairman now recognizes the gentleman from 
Mississippi, the Ranking Member of the full committee, Mr. 
Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Sheriff Dever, thank you for your service. Good seeing you 
again.
    You talked a little bit in your testimony about sometime 
fellow agencies not including State and locals in planning and 
operations. Can you talk a little bit about that for the 
committee?
    Sheriff Dever. Yes, Mr. Chairman, Mr. Thompson. Thank you.
    It has been one of my concerns from the day I got involved 
and engaged as a sheriff that it became clear that people who 
are responsible for developing policy, for developing plans and 
strategies at the Federal level never ever included or 
considered local input, either from law enforcement, 
prosecutors, or even citizens.
    I maintain that in order to develop a fully complementary 
approach, particularly in this day and age of sharing 
empowerment, et cetera, that that has to happen on the front 
end, not the back end. For the Federal Government to sit down 
and say: ``Hey, we have this program. Would you like to 
participate?'' It puts us behind the eight ball. How about: 
``Would you like to participate in the discussion about what 
kind of program we can develop, what kind of strategy we can 
collectively develop to improve that?'' That is happening more 
often, Mr. Thompson, than it has in the past, and that is a 
good thing, but it still falls a little short.
    Mr. Thompson. So you would like to see a little more 
sharing of information and asking questions.
    Sheriff Dever. Correct.
    Mr. Thompson. Sheriff Entrekin, can you give your 
experience?
    Sheriff Entrekin. Well, my experience, Congressman, is that 
we have a pretty good working relationship in Alabama and in 
the New Orleans field office with Immigration. They run our 
Secure Communities as we just went on-line, the 287(g), and 
then our transportation.
    We had a bump in the road several weeks ago, and we worked 
it out. We sat down. We sat down here in the District of 
Columbia with Congressman Rogers' staff and everybody else, and 
we worked out through some problems that we had.
    They sat down. They were very gracious and sat with us, and 
we got some real issues worked out with them, and it has made a 
big difference back in our district for what we have got going 
with them right now. With the 287(g), the Secure Communities 
coming on-line, there is a lot of difference being made in 
Alabama with this stuff working together.
    Mr. Thompson. So any suggestion that you might have is you 
want to see the Federal Government involved in this arena?
    Sheriff Entrekin. Yes, sir. To enhance these things that we 
have going on there in Alabama--as you know in your State, too, 
having problems coming on-line with all Secure Communities is 
funding-wise. If DHS has got the moneys available to help get 
these counties on-line, these States to come up, that is what 
we need to look at right now. Because Secure Communities is 
going to be a big asset to us in the southeastern part of the 
United States, being able to take these criminal aliens off the 
streets.
    Mr. Thompson. Commander Lopez, we talked a little bit about 
El Paso's reputation for being a safe community. From a 
security standpoint, what do you attribute El Paso's success in 
that arena?
    Mr. Lopez. I really do wholeheartedly believe that it is 
the cooperation that we have among the State and locals and the 
Federal Government there. As I said before, we have to rely on 
each other, because there is no one else really close by for 
us.
    Just a comment on the planning. For us in El Paso, it is a 
little bit different. A good example is the New Mexico, West 
Texas, ACTT, the Alliance to Combat Transnational Threats. We 
at the Sheriff's Office and the Police Department and Texas DPS 
were brought in from the get-go when we were first planning to 
get together with that; and even though it was a Department of 
Homeland Security initiative, we were brought together and we 
were able to give our input.
    So I think that is the difference, the cooperation between 
local and Federal.
    Mr. Thompson. Using my last few seconds, I think the 
emphasis that we have tried to place is that it is not a top-
down relationship but a shared relationship. When that happens, 
everybody performs better and everybody has a better attitude; 
and I would like to encourage our departments to continue to do 
that.
    Mr. Lopez. Absolutely correct, sir.
    Mr. Rogers. The Chairman now recognizes the gentleman from 
Texas, Mr. McCaul, for 5 minutes.
    Mr. McCaul. Thank you, Mr. Chairman.
    I want to thank the witnesses for being here today and the 
job you do every day down in what is becoming I think a more 
dangerous and volatile situation.
    Sheriff Dever, it is good to see you again. Secretary 
Napolitano said the border has never been more secure. Do you 
agree with that assessment?
    Sheriff Dever. No, I don't, and I told her that, just for 
the record, and as well as other leadership in CBP and in DHS. 
I think the problem is that the inference secure means 
``safe'', and they are two different things.
    Now, as I mentioned earlier, there are places where you 
could say, yes, it is more secure. But to simply point to the 
deployment of unprecedented assets in defining security, or an 
improved security in those terms, you know, adding ingredients 
to a recipe doesn't help if the recipe isn't right. Sometimes 
that is the case.
    For a long time, it was kind of a one-size-fits-all on the 
border. Recently CBP has been very clear that what worked in 
Texas or works in Texas isn't working in Arizona. We are going 
to have to make some changes. Those changes are developing as 
we speak. They haven't come to fruition yet. So that needs to 
be recognized.
    I don't think it is fair to the American people--and let me 
express as well. What happens on the border doesn't stay on the 
border. People coming through us are going everywhere USA, and 
the tentacles of these drug organizations and human smuggling 
organizations reach into communities in Alabama, in 
Mississippi, in Ohio, all over the Nation. So when we talk 
about we suggest that border crime and reducing border crime 
suggests the border is more secure, perhaps the border is maybe 
more secure in that location, but our Nation is at great risk 
and growing more and more insecure because of the bad people 
who continue to come in here.
    Mr. McCaul. That is an excellent point. I always make the 
point--the argument of spillover violence. I mean, I look at 
spillover crime. The fact that after Agent Zapata was killed in 
cold blood in Mexico--I met with Agent Avila. I heard the 
story. But the fact that after that happened our response was 
to sweep 450 cartel associates in the United States 
demonstrates to me that they are here. Their tentacles, as you 
mentioned, they are in the United States. Their distribution 
channels are here. It is just a matter of time before that 
becomes spillover violence, in my estimate.
    Before I get to you, Mr. Lopez, Sheriff, one last question. 
Traditionally, they haven't been these old established families 
running these cartels. They have become more rogue operations, 
as demonstrated by what happened to Agent Zapata. Have you 
noticed more threats to law enforcement on the U.S. side of the 
border?
    Sheriff Dever. Absolutely. The Mexican method of conducting 
business for years and years and years was to buy protection. 
Violence began to infiltrate and become part of the culture 
really with the movement of cocaine into the Mexican smuggling 
corridors. Because their method of doing business was always 
threats, intimidation, murder, torture, and now the Mexican 
cartels have taken that that up, and we see and hear of it all 
the time.
    Smugglers used to jump and run. Now they fight. Everybody 
that we run into is armed. Even the normal, just-looking-for-
work illegal alien is becoming much more aggressive, more 
demanding. Versus asking for food, water, and shelter, they are 
demanding it, demanding work at the risk of serious injury to 
those who don't provide it.
    Mr. McCaul. We do have more resources down there. I think 
we all agree with that. But the situation has become more 
dangerous and more violent.
    Sheriff Dever. Absolutely.
    Mr. McCaul. Mr. Lopez, on that issue, I know that El Paso 
has been touted as the safest city. Do you know the statistics 
of violent crime from the past year and the year before?
    Mr. Lopez. I don't have those available. I can tell you 
that, last year, El Paso had a total of about five murders 
compared to Juarez. I can get you those statistics, but I don't 
have those with me right now, sir.
    Mr. McCaul. Do you see foresee a situation where--when you 
do have these drug cartels in the United States, do you foresee 
a situation that could be similar to what is happening in 
Mexico down the road in terms of gang-on-gang violence?
    Mr. Lopez. Well, you are correct in saying that we have 
cartel members. We know we have the assassins, the sicarios, 
living on the United States border; and typically what they 
will do is they will go through their business in Mexico and 
then they come across. So can it happen? Absolutely. I think 
that is where the cooperation, especially on the intelligence 
side, between the Federals and the locals is crucial. As long 
as we cooperate, I think we will be okay, sir.
    Mr. McCaul. I think you are right.
    In closing, I have been to EPIC many times, and I think 
that really helps El Paso. That intelligence exchange that is 
going on between not only Federal, State, and local in El Paso 
but also with the trusted--if there is such a thing--trusted 
Mexico authorities that you can talk to and exchange 
intelligence.
    Thank you so much. I yield back.
    Mr. Rogers. The Chairman now recognizes the gentleman from 
Michigan, Mr. Clarke, for 5 minutes.
    Mr. Clarke. Thank you, Mr. Chairman.
    My comments are directed to Deputy Director Kibble, and I 
wanted to read off some information provided to me from the 
Alliance for Immigrants Rights and Reform Michigan, and they 
have outlined several cases of abuse and legal violations 
committed by Detroit ICE agents. I will read over just a few of 
these.
    One is where ICE illegally searched a home and then failed 
to provide proper medical care to a pregnant woman.
    Next, ICE pulled over, interrogated, and detained a United 
States citizen.
    ICE also stalked and arrested parents at a neighborhood 
school.
    ICE illegally searched a home and interrogated a U.S. 
citizen.
    On the same day, at a different elementary school, ICE 
surrounded an elementary school--there was no detention 
reported--but the parents that were picking up their kids were 
thrown into a panic.
    You know, this is my concern, is that I want to make sure, 
as a Member of this committee, that whenever ICE agents are 
conducting an enforcement action that those actions are based 
on information regarding that individual's immigration status--
not information based on that person's apparent race or 
ethnicity. This type of profiling is not only improper, it is 
ineffective. What concerns me greatly is that it could hurt 
economic development in the city of Detroit.
    Many of you are aware of the recent census figures. The 
City of Detroit lost a tremendous amount of people. Some of 
that I believe was an undercount. But, still, we have got major 
areas of the city where the neighborhoods have been vacated by 
a lot of reasons, foreclosures and other disinvestments.
    But the one area--neighborhood area in the city of Detroit 
that has been stabilized is southwest Detroit, and that is 
largely because of immigration there. They have been able to 
help secure those homes that went abandoned because of 
foreclosure. Most importantly, that whole area has grown. It is 
a thriving commercial area, one of the few thriving 
neighborhoods in that regard in the City of Detroit.
    These incidents that I mentioned to you are six. They are 
all allegations. But what is disturbing to me is that they 
occurred within just a 2-week period. Then I just heard 
recently of other incidents that may have happened just this 
prior weekend. This concerns me, that there may be a disturbing 
trend.
    Now, I do want to acknowledge that Director Morton, I did 
speak to him a few weeks ago. I did ask him to conduct a 
thorough investigation of these allegations. He is going to do 
so. He is going to be speaking with me shortly, and then we are 
going to have a face-to-face. So I do appreciate the 
responsiveness of your department.
    I just want to let you know of my grave concerns about the 
apparent use of profiling. Again, I want the ICE agents to make 
enforcement actions based on that person's immigration status 
and nothing else.
    If you have any comments, I would welcome it.
    Mr. Kibble. Sir, I would just say that, as I mentioned 
earlier in my testimony, we are resourced to do roughly 400,000 
removals in a given year; and I assure you we want to make 
every one of those count in terms of promoting public safety. 
The policy is certainly that each and every one of those is to 
be either intelligence-driven or relying on partnerships such 
as Secure Communities and 287(g), getting criminal aliens out 
of the jails. We take each and every allegation alleging racial 
profiling very seriously. We partner with the Department of 
Civil Rights, Civil Liberties Division to also implement 
practices and procedures, looking at data to see if there are 
any indications that might lead to that conclusion and to take 
appropriate steps.
    But, as you had indicated and by virtue of the Director 
actually going to Detroit to meet directly with the groups, we 
take it very seriously. We are reviewing the matter and also 
examining policies to see if we can clarify some of our 
policies that may lead to perception issues.
    Mr. Clarke. Thank you.
    I yield back my remaining time.
    Mr. Rogers. I thank the gentleman.
    The Chairman now recognizes the gentleman from Arizona, Mr. 
Quayle, for 5 minutes.
    Mr. Quayle. Thank you, Mr. Chairman; and I want to thank 
all of the witnesses for being here today.
    Sheriff Dever, you brought up something that is pretty 
interesting, that we in Arizona are kind of facing a dual sort 
of understanding of how the Federal Government is working with 
our State. You have the good folks at CBP who have been working 
well with our State and local officials, and then we have the 
DOJ coming in and suing our State. It is actually very timely 
because, after this, I have to jump back over to the Judiciary 
Committee where Attorney General Holder is actually testifying. 
So we can talk about that as well.
    One of the things I wanted to talk to you about was in your 
testimony about the turning back south, and you said it is more 
along the lines in the upper echelons of the Federal 
Government, especially along the sentencing guidelines and how 
we don't really have too much teeth right now to illegal 
crossings, illegal entries, and also drug smuggling and human 
smuggling.
    Going on to what Mr. Cuellar was saying, I just have a 
couple questions. One is, in the Tucson sector, what is your 
best guess on what the U.S. Attorneys' threshold is for how 
much--a pound of marijuana or any other illegal substance 
coming in? No. 2, how effective do you think it could be for 
the Tucson sector to have certain--like Operation Streamline, 
so that we can actually have some real consequences for people 
who illegally come into the United States, whether it is 
smuggling humans or smuggling drugs, but that we actually have 
some repercussions so that we won't have this revolving-door 
policy that we do right now.
    Sheriff Dever. Chairman Rogers and Mr. Quayle, there was in 
fact a 500-pound threshold in the Arizona district for many, 
many, many years. Cocaine and methamphetamine had high 
thresholds as well. The current AUSA says those thresholds have 
been eliminated by policy, they have practices and other 
things, and every case is considered supposedly under its own 
merit. Clearly, they have limited resources and limited ability 
to process. There is only so much time on the docket. There is 
only so much room in the cells. There are only so many 
prosecutors.
    But when you establish those artificial thresholds, the bad 
guy figures them out real quick. Every Assistant U.S. Attorney 
across the country has a lot of autonomy. They basically 
establish within their district what those thresholds are going 
to be.
    The one that Representative Cuellar mentioned, I happen to 
have a copy of, and they are pretty astounding, not only for 
narcotics but for prosecuting human smugglers as well and 
illegal aliens themselves for a crime.
    The first offense, entering this country illegally, is 
actually a misdemeanor if you are charged and convicted. If you 
are not charged, if you are simply removed under some 
administrative process, you would never have a first offense 
therefore never a second offense, which is a felony, where you 
begin to get teeth into your deterrence program because there 
is going to be more consequences.
    The AUSA currently in Tucson moves through expedited 
removal process 70 people a day. That is their capacity of 
carrying it.
    So streamline, expedited removal, all of those are 
effective. But if you don't end up with a criminal charge out 
of that, there is no disincentive to come back because you know 
that it is just going to happen.
    Those thresholds are established in Laredo. In fact, it is 
seven times before you are going to have the opportunity to be 
prosecuted for the misdemeanor and then seven times before you 
are going to have the opportunity to be prosecuted for a 
felony. So you get 16 shots of this before there are any 
serious consequences.
    I can tell you cases where I know in Arizona of at least 
one case where a guy had 23 re-entries and never charged with a 
crime until he was nailed with a drug charge. So that is the 
case. There have to be consequences. They have to be serious 
enough to be a deterrent along with the enforcement effort on 
the ground.
    Mr. Quayle. Thank you, Sheriff.
    Deputy Vitiello, I have a question. When we are having a 
drawdown--I just spoke recently to General Salazar, who is the 
head of the Arizona National Guard. He is telling me that the 
National Guard is drawing down. They are supposed to be 
completely drawn down by the end of June, around that time. 
They are already beginning the drawdown and the phase-down 
right now.
    So my question to you: Is CBP ready to fill the void that 
the National Guard, when it is removed, is it ready to fill the 
void at that time? If not, one of my issues and one of the 
things that I foresee in talking to our National Guard is that 
if you are going to have a drawdown and then you actually are 
going to be extending it--since we are actually drawing down 
right now, we are just going to keep going, so it is going to 
take time to ramp up again. So is CBP ready to fill the gaps 
that--where National Guard has been the force multiplier for 
you guys down in the Southern border?
    Mr. Vitiello. We have got a great relationship with the 
Guard, and we really appreciate their contribution for border 
security. When the original request for assistance went in, we 
knew that the drawdown would begin in earnest in June, and so 
we have been staffing both through our own internal moving of 
experienced agents into the Tucson sector, into the State, and 
then with the supplemental hiring that begins in earnest in 
April, we feel we are ready.
    Mr. Quayle. Thank you. I yield back.
    Mr. Rogers. The Chairman now recognizes Mr. Duncan for 5 
minutes.
    Mr. Duncan. I am from the right side of South Carolina, and 
if you look at a map we are as far away from the Southern and 
Northern border as you can possibly get probably in this 
country, but it is a very concerning issue, especially with the 
increase of use of methamphetamine that is manufactured across 
the border and brought into our State. But that is not the line 
of questioning I would like to go on.
    During the written testimony and during the testimony that 
I heard, we heard whole-Government approach, multi-layered 
approach, in fact, using Tribal and local and Federal agencies 
all working together. I appreciate the need for that. I think 
we are all Americans, and this is an issue that we all have to 
be involved in with securing our border, with deterring illegal 
immigration, and also fighting against the illegal substances 
that are coming into the country.
    But in reading some of the statements here, Sheriff Dever 
said that Federal strategists, policymakers, and planners have 
failed to include local officials, residents in the process. We 
talked about in Sheriff Law's comments--and, Mr. Lopez, I don't 
know if you had mentioned that in your verbal comments--but he 
raises some concern that even though immigration issues are a 
Federal responsibility, he says that Federal immigration law is 
complex and contains both criminal and civil penalties. 
Mistakes can be made by those who are enforcing that. He raised 
a concern that if a local or county officer does enforce 
immigration law and then makes a mistake--who is going to 
represent that officer in court, who is responsible to pay any 
settlements or judgements?
    I am just concerned and really would like to hear what we 
can do, as Congress, to facilitate the additional coordination 
between local, State, and Federal agencies and then what can we 
do to ensure that those at the local level that are enforcing 
Federal law have some sort of immunity with regard to that?
    So I am just going to ask first off, Sheriff Dever, who I 
have enjoyed reading about and I appreciate your stance, sir, 
tremendously, what can we do to assist you guys in the multi-
layered approach to help the Sheriff's Office and local 
community?
    Sheriff Dever. Well, Mr. Chairman, Mr. Duncan, 287(g) is a 
good program away from the border and provides for some of that 
training. We really don't need it on the border, because we 
have a ton of Border Patrol agents. So when we encounter, 
become engaged with illegal aliens, we simply turn them over to 
our Federal partners at that level. So we have a relationship 
with ICE, although it is a small contingent in Cochise County, 
but mostly in the investigative process.
    But I have always felt that some enhanced training for 
State and local, even if they are not really very actively 
engaged in immigration enforcement--let me just make one 
comment there.
    Mr. Quayle mentioned the lawsuit. The lawsuit was 
mentioned. It just doesn't make sense to me. The Federal 
Government says immigration enforcement is our sole 
responsibility. Yet when it comes to other border-related 
activity--gun running, financial investigations, kidnapping, 
murder, and all that kind of stuff--we are embraced and wrapped 
around and say, please, we want your full participation in 
this.
    Yet when it comes to immigration, it is very, very 
structured and very, very narrow what that participation might 
be.
    So--but I think some enhanced training could take place. 
Clearly, if there is some immunities that can be transferred 
from the Federal level, the Congressional level to State and 
local, that would be huge as well.
    Mr. Duncan. Mr. Lopez, would you like to also talk about 
the involvement? What can we do to assist you guys in your 
involvement in this multi-layered approach?
    Mr. Lopez. Thank you, sir.
    I agree with the Sheriff Dever, and in El Paso as well we 
have quite a bit of Border Patrol agents as well. So in that 
sense, we don't need any more help.
    Now, from our perspective with the El Paso County Sheriff's 
Office, we participate in Stonegarden and Border Star and 
various grants that give us moneys for overtime and for some 
equipment.
    But what we really need, No. 1, if we are going to be 
tasked for immigration, to enforce immigration law, then we 
definitely need to train, No. 1.
    But, No. 2, we also need the resources. We just don't have 
the personnel. We barely have another enough people to cover 
our own area of responsibility, our own area of jurisdiction. 
When one deputy is taken away from that neighborhood, it could 
be devastating for our local citizens like where--when they 
call 9-1-1, they expect us to be there, but if we are out on 
the border, and it takes time. It is not just we are going to 
go pick up the alien. We still have to go and book, the whole 9 
yards. So for us it would be additional manpower would be of 
great assistance.
    Mr. Duncan. Thank you.
    I am out of time, Mr. Chairman. I yield back.
    Mr. Rogers. I want to thank the gentleman from South 
Carolina for his questions and for wearing his tie today in 
honor of the National Football Champion, the Auburn Tigers.
    Mr. Duncan. This would be a Clemson Tiger tie. Let me just 
correct you. But I do commend Auburn for their championship.
    Mr. Rogers. You mean you all have a football team?
    In closing, I want to just touch on the ICE issue for a 
minute.
    For the two sheriffs as well as Mr. Lopez and from Etowah 
County, I know you all know my sheriff, Larry Amerson, and of 
course down in Lee County, Jay Jones, the two biggest counties 
in my Congressional district. Those two gentlemen, as well as 
the sheriffs in every county in my district and judges tell me 
that when they call--and I have asked them--when you call ICE 
to come and pick up somebody that you have got that is here 
illegally. What happens? They laugh. They say, ICE just says we 
don't have time and never comes and gets them.
    Sheriff Dever, Sheriff Entrekin, and Mr. Lopez, has that 
been your experience? Start off with Sheriff Entrekin.
    Sheriff Entrekin. No. We are unique in Etowah County having 
ICE agents assigned to our facility. We have a field office 
there. So we don't have that problem. But I do experience that 
with the sheriffs throughout Alabama, them calling me wanting 
to know how to do something.
    Well, this program with the 287(g), which we have, if some 
of the others could come on-line with that. But Secure 
Communities, and both of your counties come on-line with it, 
too. Lee County did it along with Calhoun County. So that is 
going to eliminate that problem.
    When somebody comes into their facility that is an illegal 
alien and they are documented as illegal, then we will be able 
to come to your facility through our transportation agreement 
with immigration and pick them up. So I think we are going to 
see that problem being solved throughout Alabama as everybody 
comes on-line with these new projects.
    Sheriff Dever. It is my understanding--and Mr. Kibble could 
correct it if it is wrong--but that ICE's plan is to roll out 
Secure Communities Nation-wide in 2013. That was the last I 
heard. If that happens--and, of course, we hear today that if 
the county has to pony up the infrastructure resources, don't 
have the money, that is going to be a hindrance to that.
    But Secure Communities is the best thing that was ever 
announced and was rolled out in terms of helping to solve, 
catch the people who are falling through the cracks. It is a 
great program needs to be expanded.
    Again, our relationship with ICE in our county is mostly in 
the investigative process. Because in dealing with illegal 
aliens we have a ton of Border Patrol agents. So ICE will come 
pick them up if they meet the right criteria. Under Secure 
Communities, that is all done. It is a good program, and it is 
working well.
    Mr. Rogers. It is my understanding that Secure Communities 
is supposed to go on-line in Alabama this year. I hope that is 
accurate.
    Mr. Lopez, does ICE come and get them when you call them?
    Mr. Lopez. Yes, sir. Absolutely. We have been participating 
in Secure Communities since 2009.
    Here in El Paso, we have two jails. They are both 
approximately 1,200 beds. We have not had any issues with that 
program at all because we have a local contingency of ICE 
agents that are there on a daily basis. So we have no issues 
with them coming to pick them up.
    Mr. Rogers. That would be great if we could say that in 
Alabama.
    Mr. Kibble, I think he wants to defend himself.
    Mr. Kibble. I want to say Sheriff Dever is accurate. We 
have an aggressive schedule to have Secure Communities deployed 
to all jurisdictions by 2013. We are on target for this year. 
We want to roll out to 897 additional jurisdictions, and we are 
on pace to do that. So things are going well as far as getting 
that capability deployed.
    Mr. Rogers. I want to thank all of the witnesses for taking 
the time for being here. Thank you for taking the time to 
prepare your statements. You have been a great help to this 
committee. Thank you for your service to our country.
    I want to remind all of the witnesses that some Members who 
weren't here may have questions for you they will submit to 
you, and I will ask you to respond to those within 10 days in 
writing.
    With that, this hearing is adjourned.
    [Whereupon, at 11:35 a.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
